<html>
<title> - WASTE, FRAUD, AND ABUSE IN VA'S PURCHASE CARD PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








         WASTE, FRAUD, AND ABUSE IN VA'S PURCHASE CARD PROGRAM

=======================================================================

                                HEARING

                               before the
              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, MAY 14, 2015

                               __________

                           Serial No. 114-20
                               __________




       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-637                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                    MIKE COFFMAN, Colorado, Chairman

DOUG LAMBORN, Colorado               ANN M. KUSTER, New Hampshire, 
DAVID P. ROE, Tennessee                  Ranking Member
DAN BENISHEK, Michigan               BETO O'ROURKE, Texas
TIM HUELSKAMP, Kansas                KATHLEEN RICE, New York
JACKIE WALORSKI, Indiana             TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.











                            C O N T E N T S

                              ----------                              

                         Thursday, May 14, 2015

                                                                   Page

Waste, Fraud, and Abuse in VA's Purchase Card Program............     1

                           OPENING STATEMENTS

Mike Coffman, Chairman...........................................     1
    Prepared Statement...........................................    34
Hon. Beto O'Rourke...............................................     2
Ann Kuster, Ranking Member
    Prepared Statement...........................................    35

                               WITNESSES

Mr. Edward J. Murray, Acting Assistant Secretary for Management 
  and Interim Chief Financial Officer, Office of Management, 
  Department of Veterans Affairs.................................     4
    Prepared Statement...........................................    35

    Accompanied by:

Mr. Jan Frye, Deputy Assistant Secretary and Senior Procurement 
  Executive, Office of Acquisition and Logistics, Department of 
  Veteran Affairs................................................     7
Prepared Statement...............................................    46

        Mr. Gregory Giddens, Principal Executive Director, Office 
            of Acquisition, Logistics and Construction, 
            Department of Veterans Affairs

        Mr. Norbert Doyle, Chief Procurement & Logistics Officer, 
            Veterans Health Administration, Department of 
            Veterans Affairs
Ms. Linda A. Halliday, Assistant Inspector General for Audits and 
  Evaluations, Office of Inspector General, Department of 
  Veterans Affairs...............................................     5
    Prepared Statement...........................................    39

    Accompanied by:

        Mr. Quentin G. Aucoin, Deputy Assistant Inspector General 
            for Investigations (Field Operations), Office of 
            Inspector General, Department of Veterans Affairs

        Mr. Murray Leigh, Director, Financial Integrity Division, 
            Office of Audits and Evaluations, Office of Inspector 
            General, Department of Veterans Affairs

        Mr. Kent Wrathall, Director, Atlanta Office of Audits and 
            Evaluations, Office of Inspector General, Department 
            of Veterans Affairs

                        STATEMENT FOR THE RECORD

Letter & Questions From: Chairman Mike Coffman, To: VA...........    83
Questions From: Chairman Mike Coffman and Responses From: VA.....    84
Questions From: Subcommittee and Response From: VA...............    86
Department of Veterans Affairs, Attachment for Purchase Card 
  Hearing........................................................    93
Department of Veterans Affairs, Credit Card System...............    94
Letter & Questions, From: Richard Griffin To: VA.................    95
Memorandum from Jan R. Frye......................................    98
Department of Veterans Affairs Government Purchase Card..........    99
 
         WASTE, FRAUD, AND ABUSE IN VA'S PURCHASE CARD PROGRAM

                              ----------                              


                         Thursday, May 14, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
               Subcommittee on Oversight and Investigation,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:31 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Coffman 
[chairman of the subcommittee] presiding.
    Present:  Representatives Coffman, Miller, Lamborn, Roe, 
Benishek, Huelskamp, Walorski, Kuster, O'Rourke, Rice, and 
Walz.

           OPENING STATEMENT OF CHAIRMAN MIKE COFFMAN

    Mr. Coffman. Good morning. This hearing will come to order. 
I want to welcome everybody to this hearing, ``Waste, Fraud, 
and Abuse of the VA's Purchase Card Program,'' the deficiencies 
of VA's implementation and oversight of its government Purchase 
Card Program.
    The use of government purchase cards is intended to 
streamline payment procedures and improve cash management 
practices at the Department. However, the program has had a 
history of weak internal controls and serious violations of 
procurement laws, including the Competition in Contracting Act 
and the Federal Acquisition Regulation.
    Due to inadequate oversight of the Purchase Card Program, 
especially at the Veterans Health Administration, we have 
learned that VA may have committed as much as $5 billion a year 
in improper and unauthorized procurement expenditures for at 
least the last 5 years. This is truly a staggering amount.
    Given the high number of transactions, 6.2 million in 
fiscal year 2014, and the aggregate billions at risk, it is 
crucial that VA implement effective oversight controls to 
ensure its uses of taxpayer resources are efficiently used for 
veterans. Even after multiple reports from the OIG, the GAO, VA 
continues to leave its program vulnerable to massive waste, 
fraud, and abuse.
    In this regard, for fiscal year 2015, the VA OIG has 
identified the following seven risk areas: number one, 
exceeding authorized purchase limits individually or in 
aggregate; number two, an excessive number of purchase 
cardholders with inadequate justification; number three, an 
unmanageable span of control, the ratio of cardholders to 
approving officials is very high; number four, inadequate 
financial controls prohibiting duplicative or split payments; 
number five, inadequate reporting of financial information; 
number six, insufficient oversight of year-end spending; and 
number seven, inadequate review of purchases by reviewing 
officials.
    Violations of procurement laws are not mere technicalities. 
It is not just a matter of paying a little more for needed 
supplies and services, as some apologists for VA have asserted. 
Among other things, purchase card abuse invites cronyism and 
the directing of business to favored vendors, including those 
who may employ former VA officials.
    Moreover, buying of biologics and medical supplies without 
contracts imperils patient safety. Without contracts, FDA 
certifications are not a legal requirement, nor are the Buy 
America Act or Trade Agreement Act provisions applicable. If 
veterans are later harmed by these products, VA would have 
little recourse without contracts with the vendor.
    Recognizing the importance of compliance with procurement 
laws in Purchase Card Programs, Congress has passed the 
Government Charge Card Abuse Prevention Act of 2012, requiring 
periodic audits, reports, and risk assessments. It also 
requires that agencies hold employees who violate purchase card 
guidelines or make erroneous, improper, or illegal purchases 
accountable through adverse personnel actions, including 
dismissal. Under existing law, agencies may also hold such 
employees personally liable.
    However, rather than following the law and holding its 
employees accountable, VA has often sought to institutionally 
ratify unauthorized commitments, sometimes in wholesale, for 
years of illegal purchases.
    I am sure many of you know that The Washington Post 
published an article this morning involving these very issues, 
citing to a 35-page letter sent to Secretary McDonald months 
ago--months ago--detailing these problems. We distributed that 
letter to every member of this subcommittee and would like to 
get an answer from VA as to what it plans to do to fix the 
litany of problems explained within it.
    In conclusion, VA needs to explain to the subcommittee, to 
taxpayers, and to veterans its continuing and longstanding 
mismanagement of the Purchase Card Program. Each time VA makes 
illegal purchases taxpayers are forced to foot the bill, 
resources to care for veterans are squandered, and the veteran, 
as well as the government assumes all the risk.
    I look forward to the discussion we will have here today on 
this important issue.
    With that, I now yield to the Ranking Member, Mr. O'Rourke, 
for any opening remarks he may have.

    [The prepared statement of Chairman Mr. Mike Coffman 
appears in the Appendix]

            OPENING STATEMENT OF HON. BETO O'ROURKE

    Mr. O'Rourke. Thank you, Mr. Chairman. And thank you for 
holding this hearing. I look forward to the testimony from our 
panel and to their answers from our questions.
    I'll waive any opening remarks, but I'll ask that Ranking 
Member Kuster's full written opening remarks be submitted for 
the record.
    Mr. Coffman. Thank you, Mr. O'Rourke.
    Ask all members waive their opening remarks as per this 
committee's custom.
    With that, I invite the first and only panel to the witness 
table. On the panel from VA, we have Mr. Edward Murray, Acting 
Assistant Secretary for Management and Interim Chief Financial 
Officer of the Office of Management; Mr. Greg Giddens, 
Principal Executive Director of the Office of Acquisitions, 
Logistics and Construction.
    Is Mr. Giddens here? Okay. I think you ought to be at the 
panel. Okay. That's fine.
    Okay. Mr. Jan Frye. Okay. VA Senior Procurement Executive 
and Deputy Assistant Secretary for the Office of Acquisition 
and Logistics. And Mr. Norbert Doyle, Chief Procurement and 
Logistics Officer of the Veterans Health Administration.
    From the Office of Inspector General we have Ms. Linda 
Halliday, Assistant Inspector General for Audits and 
Evaluations. She is accompanied by Mr. Quentin Aucoin, Deputy 
Assistant Inspector General for Investigations, Mr. Kent 
Wrathall, Director of the Atlanta Office of Audits and 
Evaluations, and Mr. Murray Leigh, Director of the Office of 
Audits and Evaluations, Financial Integrity Division, of the 
Office of Inspector General.
    I'd ask the witnesses to please stand and raise your hand.
    [Witnesses sworn.]
    Mr. Coffman. Please be seated.
    Prior to hearing from our witnesses, I would like to note 
the considerable effort VA exerted to substitute witnesses in 
place of those who I requested for this hearing. I requested 
that Mr. Frye, who serves as VA's senior procurement executive, 
attend as the lead witness for VA since it is his role and has 
been for about 8 years to act as VA's chief contracting 
officer. For some unexplainable reason VA pushed back, stating 
that it would not send Mr. Frye and instead would send Mr. 
Giddens, who just passed his fifth week in the position of 
Executive Director of VA's Acquisition Office, which admittedly 
makes him Mr. Frye's superior.
    What strikes me as strange is that VA decided that it would 
be better to send an individual who has been at the helm of 
VA's Contracting Office for just over a month to discuss 
matters that have been affecting VA for years. I specifically 
asked for Mr. Frye to attend because he can speak with 
firsthand experience on the specifics of VA's acquisitions, 
whereas Mr. Giddens can only do so by what he has been told 
about them.
    When this committee makes specific requests for witnesses 
to attend it is because it knows those witnesses can speak to 
the issues in question. We are not asking VA to attempt to 
substitute its judgment for that of the committee in what can 
only be seen as yet another attempt to avoid responding in a 
fully open, candid, and accurate manner to our questions. In 
other words, we do not want a person who has just joined a 
particular office to come and, when asked a question, take it 
for the record since they have only been there for a short 
time.
    Unfortunately, this has become a continuing VA tactic, but 
appears to be a means to avoid answering questions publicly 
when the answer might reflect poorly on VA. All that does is 
stifle the conversation, which defeats the entire purpose of 
having a hearing. Perhaps that is the point.
    Ultimately, VA relented and agreed to send Mr. Frye and Mr. 
Giddens, which is why we have had to seat some witnesses behind 
those who sit at the table.
    With that, Mr. Murray, you are now recognized for 5 
minutes.

 STATEMENT OF MR. EDWARD J. MURRAY, ACTING ASSISTANT SECRETARY 
 FOR MANAGEMENT AND INTERIM CHIEF FINANCIAL OFFICER, OFFICE OF 
MANAGEMENT, DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY MR. 
   GREGORY GIDDENS, PRINCIPAL EXECUTIVE DIRECTOR, OFFICE OF 
    ACQUISITIONS, LOGISTICS AND CONSTRUCTION, DEPARTMENT OF 
VETERANS AFFAIRS, MR. JAN FRYE, DEPUTY ASSISTANT SECRETARY AND 
    SENIOR PROCUREMENT EXECUTIVE, OFFICE OF ACQUISITION AND 
  LOGISTICS, DEPARTMENT OF VETERANS AFFAIRS, AND MR. NORBERT 
 DOYLE, CHIEF PROCUREMENT & LOGISTICS OFFICER, VETERANS HEALTH 
         ADMINISTRATION, DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF EDWARD J. MURRAY

    Mr. Murray. Good morning, Chairman Coffman, Ranking Member 
Kuster, and members of this subcommittee. Thank you for the 
opportunity to participate in this hearing and to discuss the 
Department of Veterans Affairs' implementation and oversight of 
our Purchase Card Program. I'm accompanied today by Mr. Greg 
Giddens, Principal Executive Director, Office of Acquisitions, 
Logistics and Construction; Mr. Jan Frye, Deputy Assistant 
Secretary for Acquisitions and Logistics; and Mr. Norbert 
Doyle, Chief Procurement Logistics Officer for the Veterans 
Health Administration.
    I, with the senior leadership at this table and across the 
VA, am committed to ensuring VA's Purchase Card Program is run 
efficiently and effectively. VA relies on the program to buy 
supplies and services in direct support to our veterans. For 
instance, purchase cards are used to buy prosthetics and 
sensory aids to promote veteran health and quality of life.
    As with many large programs, we have experienced 
challenges, as noted in the recent report by the Office of 
Inspector General. We value the recommendations provided by the 
inspector general and have implemented needed improvements to 
strengthen our controls over VA's Purchase Card Program.
    We now close the account or have reduced the card spending 
limits due to inactivity, invalid training certificates, and 
lack of valid warrants, or when employees separate. In December 
2012, our Financial Services Center became the single point of 
control in VA for setting single purchase limits for 
cardholders. Using these controls and others, we have not 
identified any unwarranted cardholders with single purchase 
limits above the micro-purchase limit since January 2013.
    Within VA, VHA has the largest number of purchase 
cardholders, generating a little over 98 percent of the 
purchase card transactions in fiscal year 2014. VHA purchase 
cardholders spend about $3.7 billion annually on approximately 
6 million transactions. As the inspector general noted in their 
2013 report, use of the purchase card is a way for VHA to 
increase purchasing efficiency and cost-effectiveness. VHA's 
Office of Procurement and Logistics provides additional 
oversight for VHA's Purchase Card Program.
    In May 2014, the inspector general issued a report on the 
review of alleged unauthorized commitments regarding purchase 
card transactions in fiscal year 2012. The IG substantiated 
allegations that cardholders made unauthorized commitments and 
that VA had not performed ratification actions on identified 
unauthorized commitments. In total, OIG made nine 
recommendations to VA, all of which were closed by October 
2015--I mean, I'm sorry, April 2015.
    VA has made significant strides in recent years in its 
Purchase Card Program, and we recognize the need to continue to 
expand and improve our oversight internal controls. The Charge 
Card Act has supported our improved program, and we continue to 
develop and refine training for all government Purchase Card 
Program participants.
    Mr. Chairman, this concludes my opening statement. My 
colleagues and I are prepared to answer any questions you or 
other members of the committee may have.

    [The prepared statement of Mr. Edward J. Murray appears in 
the Appendix]

    Mr. Coffman. Thank you, Mr. Murray.
    Ms. Halliday, you are now recognized for 5 minutes.

STATEMENT OF MS. LINDA A. HALLIDAY, ASSISTANT INSPECTOR GENERAL 
   FOR AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, 
 DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY MR. QUENTIN G. 
 AUCOIN, DEPUTY ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS 
(FIELD OPERATIONS), OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF 
    VETERANS AFFAIRS, MR. MURRAY LEIGH, DIRECTOR, FINANCIAL 
INTEGRITY DIVISION, OFFICE OF AUDITS AND EVALUATIONS, OFFICE OF 
INSPECTOR GENERAL, DEPARTMENT OF VETERANS AFFAIRS, AND MR. KENT 
 WRATHALL, DIRECTOR, ATLANTA OFFICE OF AUDITS AND EVALUATIONS, 
  OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF VETERANS AFFAIRS

                 STATEMENT OF LINDA A. HALLIDAY

    Ms. Halliday. Chairman Coffman and members of the 
subcommittee, thank you for the opportunity to provide 
testimony concerning the OIG's work related to VA's Purchase 
Card Program.
    VA's program enables authorized employees to make purchases 
on behalf of the Federal Government to support VA's mission. 
From fiscal year 2011 to 2014, the value of VA's purchase card 
transactions increased by just over 100 percent, from $1.8 
billion to $3.7 billion.
    Considering the high value and the volume of the purchase 
card transactions, ensuring compliance with policies and 
controls over the use of purchase cards is critical to 
providing and protecting taxpayers' funds in an efficient and 
effective manner.
    The Government Charge Card Abuse Prevention Act of 2012 
requires agencies to establish and maintain safeguards and 
internal controls over purchase cards. OIGs must conduct 
periodic risk assessments of agency purchase cards to analyze 
the risks of illegal, improper, or erroneous payments. Based on 
our risk assessments, we conduct and plan audits and reviews 
that can continue to address high risk areas, inefficiencies, 
and help limit the financial risks to VA.
    Overall, we consider VA's Purchase Card Program at medium 
risk of fraud. However, our recent risk assessments identified 
significant control weaknesses that did not detect or prevent 
transactions involving unauthorized commitments, improper 
payments, split purchases, and purchases that lacked 
appropriate supporting documentation. We identified seven high-
risk weaknesses in the controls. I won't restate those since 
your opening statement did.
    On May 2014, our report titled ``Review of Alleged 
Unauthorized Commitments Within VA'' substantiated allegations 
that purchase cardholders made unauthorized commitments and 
violated the law by not performing proper ratification actions 
on these unauthorized commitments. An unauthorized commitment 
circumvents Federal competition requirements and increases the 
risks of paying excessive prices and misuses taxpayer funds. 
Ratification is an act of approving an unauthorized commitment 
by an official who has the authority to do so.
    Our review of these alleged unauthorized commitments 
estimated that during fiscal year 2012 and 2013, VA made about 
15,600 potential unauthorized commitments. We projected a value 
of $85.6 million, which was a conservative range, that required 
ratification actions. In one instance, we identified one 
cardholder that made 18 unauthorized commitments totaling 
approximately $4.6 million.
    These commitments occurred over a 10-month period without 
being detected. VA could have prevented and reduced the number 
of unauthorized commitments with stronger controls and early 
detection by ensuring regular oversight.
    VA used a practice of institutionally ratifying bundled 
unauthorized commitments in the past. This practice, in our 
view, does not hold individuals accountable for this serious 
offense and it does not ensure that reasonable prices were 
obtained.
    Given these types of purchase card risks and noncompliance 
with purchasing requirements, we are examining compliance with 
purchase card requirements in VA conference management 
activities for fiscal year 2015. Additionally, in response to 
information obtained during the course of a criminal 
investigation involving purchase card abuses at a VA New Jersey 
Health Care System, we have initiated a follow-on review to 
determine whether the practice of continuing to split 
purchasing is pervasive throughout that healthcare system. Our 
data mining, risk assessments, audits, and reviews are 
complemented with the work performed by the Office of 
Investigations, who performs criminal investigations involving 
purchase card fraud.
    Misuse of purchase cards throughout VA is unacceptable. It 
has existed for years and it contributes to the erosion of 
public trust that taxpayer dollars are being spent wisely and 
effectively.
    We have reported since 1995 inadequate VA controls that 
allowed cardholders to make thousands of unauthorized purchase 
commitments. VA must significantly strengthen its Purchase Card 
Program to prevent future misuse of taxpayer dollars.
    Mr. Chairman, this concludes my statement, and we'd be 
pleased to answer any questions.
    [The prepared statement of Ms. Halliday appears in the 
Appendix]
    Mr. Coffman. Thank you, Ms. Halliday, for your testimony.
    Mr. Frye, at my invitation to VA to testify I originally 
asked for you to provide an opening statement, so I now invite 
you to the table and will recognize you for 5 minutes to do so.

                     STATEMENT OF JAN FRYE

    Mr. Frye. Chairman Coffman, Ranking Member Kuster, and 
members of the subcommittee, thank you for inviting me to 
testify before you this morning.
    Today I find myself in a position I never envisioned myself 
to be in: I'm testifying as a whistleblower.
    Before I go further, I want to assure you I do not enjoy 
being a whistleblower. I am not a disgruntled VA senior 
executive. I am definitely not seeking attention or celebrity. 
I'm here before you because I've been unsuccessful in my 
persistent attempts to bring massive violations of Federal 
acquisition and fiscal laws and regulations to a halt in VA.
    Each of us engaged in Federal acquisition and fiscal 
processes have an overriding responsibility to taxpayers. Those 
of us in leadership positions must always lead in a manner so 
as to maintain the public trust while upholding the integrity 
of the Federal acquisition and financial systems.
    Over the past 5 years, some senior VA acquisition and 
finance officials have woefully violated the public trust while 
Federal procurement and financial laws were debased. Their 
overt actions and dereliction of duties combined have resulted 
in billions of taxpayer dollars being spent without regard to 
Federal laws and regulations, making a mockery of Federal 
statutes.
    I'm not aware of a single senior acquisition leader being 
held accountable for wrongdoing or dereliction in the nearly 10 
years I've been in my present VA position.
    While intentional violations of Federal acquisition and 
fiscal laws add to VA's now infamous corrosive culture, 
recently cited by the White House, these unlawful acts may 
potentially result in serious harm or death to America's 
veterans. When VA procures pharmaceuticals or medical devices 
without terms and conditions afforded via written contracts, 
the government forfeits all legal protections afforded by 
contract law. Efficacy and safety mandates are nonexistent. 
Without contracts, Food and Drug Administration certifications 
are not a legal requirement, nor Trade Agreement Act or Made in 
America provisions.
    Unfortunately, the government has little recourse if 
veterans are harmed by products or services obtained without 
protection of contract terms and conditions.
    In addition, doors are flung wide open for fraud, waste, 
and abuse when contracts are not executed. For example, by law, 
prices paid for goods or services subject to contracts can only 
be determined to be fair and reasonable by duly appointed 
contracting offices. I can state without reservation that VA 
has and continues to waste millions of dollars by paying 
excessive prices for goods and services due to breaches of 
Federal procurement laws.
    Further, traceability and auditability of public funds 
spent without regard for established laws and regulations are 
difficult, if not impossible to realize. Contract award data is 
required statutorily to be recorded in the Federal Procurement 
Data System, which is accessible by the general public. When 
contracts are not executed, the taxpayers are not afforded 
access to data describing these expenditures.
    Also, VA's small business goal accomplishments have been 
and continue to be overstated. Illegal procurements without 
contracts are not included in calculations to determine 
federally mandated small business goals. Thus, we've duped the 
veteran-owned business community we're required by law to 
advocate for.
    The overarching questions are these: How is it possible the 
VA procurement and finance systems have been allowed to operate 
where potentially billions of dollars in goods and services are 
acquired without contracts as required by Federal law? Why are 
VA senior procurement and finance officials not actively 
enforcing acquisition and fiscal laws?
    You just heard Mr. Murray provide the VA's official 
statement in response to your request for this hearing. There 
are no false affirmations in our statement that I'm aware of. 
However, senior leaders before you today know the Department is 
not telling the whole story.
    We hope you won't ask us any questions that will force us 
to tell you about the important pieces we premeditatedly left 
out. If you happen to ask us about what we failed to tell you, 
we hope we can answer your question in such a way as to quickly 
extinguish follow-on questions. In short, obfuscation is our 
game.
    I will no longer be you a party to these VA games. The 
vaunted Veterans Affairs ICARE values, with integrity being 
first, make an attractive lapel pin, but little else if we 
don't live these values daily. We continue to flout integrity, 
the most basic and necessary foundational footing, the very 
core of our being.
    In the recent past, because VA senior leaders would not 
conduct themselves appropriately, I was forced to request 
assistance from congressional Members. For instance, 
Representative Donnelly, now Senator Donnelly, assisted me in 
halting the ubiquitous violations of Federal law in the 
procurement of VA pharmaceuticals in 2012 through hearings he 
mustered. Former Representative Buyer assisted me twice in 
arresting massive violations in the use of miscellaneous 
obligations in 2008 and again in 2010 through hearings.
    In 2013, I attempted to report massive illegal acts to the 
House Oversight and Government Reform Committee, including 
matters involving illegal purchase card use. I was thwarted in 
my efforts when that committee's senior counsel and a VA senior 
acquisition executive, who are friends, conspired to keep my 
letter from Chairman Issa.
    Approximately 7 weeks ago, I disclosed illegal matters in a 
35-page report to Secretary McDonald, which included 
recommendations going forward. My labors have not yet been 
acknowledged. I took to heart the Secretary's invitation for 
whistleblowers to step forward. I believed the Secretary was 
sincere when entreating all VA employees to abide by the words 
found in the West Point Cadet Prayer: ``Make us to choose the 
harder right instead of the easier wrong.''
    However, I hope we can resolve to also live up to the 
remainder of the sentence in which those words are contained, 
and let me read that entire sentence for you: ``Make us to 
choose the harder right instead of the easier wrong and never 
to be content with a half-truth when the whole can be won.''
    Mr. Chairman, this concludes my testimony, and I'm prepared 
to answer questions you or other members of the subcommittee 
may have.

    [The prepared statement of Mr. Jan Frye appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Frye, for your remarks.
    Unless there is any member objection, the written 
statements of those who have just provided oral testimony will 
be entered into the hearing record. Hearing none, so ordered. 
And we will now proceed to questioning.
    Mr. Murray, according to VA emails, in late 2012, Mr. Frye 
clearly informed you and others that stopping the illegal use 
of purchase cards does not adversely impact veterans' care. In 
fact, stopping the practice would actually better protect 
veterans and the government by putting contracts in place and 
providing the protections offered under the law.
    So why are the issues identified in 2012 by Mr. Frye still 
not fixed?
    Mr. Murray. If I recall that email, and some of this is 
just going to be recollection, because it was a while ago, and 
I think this occurred after a meeting that we had as well, a 
Senior Assessment Team meeting, but the issue there was we 
agreed to establish a work group, both the Health 
Administration participants as well as the Office of 
Acquisitions and Logistics, to look into these matters. And 
that work group did meet, and the Office of Business Oversight 
did try to pursue those important issues.
    Mr. Coffman. Well, Mr. Murray, obviously there's 
documentation that this practice has gone on for years and has 
been reported to the OIG repeatedly, so it doesn't seem as if 
you're in a hurry to fix it.
    Mr. Frye, why are the issues you outlined in 2012 still not 
fixed?
    Mr. Frye. Well, first of all, let me make sure the 
committee knows what hasn't been fixed. As you know, the IG 
report identified over 2,000 persons where cards were issued, 
and these persons did not have the authority to use the card 
above $3,000. That's one issue.
    But the second issue the IG didn't choose to look in, 
because they had limited their scope, was whether there were 
contracts in place. That's the other element that is absolutely 
essential when cards are used above $3,000.
    Cards used above $3,000 are not a procurement methodology, 
they're a payment methodology. It goes without saying, to pay 
on a contract, you must have a contract. That is the issue in 
question here. That's the issue that some of my colleagues have 
not been willing to talk too much about. And that's primarily 
where we have very, very much abused the system.
    The reason these have not been fixed is because of poor 
leadership. There simply is not the leadership, the 
leadership's will to get them fixed. We know what's wrong.
    The VA has a very complex supply chain system, but we have, 
I think, a relatively easy procurement system. What we buy are 
commercial off-the-shelf products, for the most part. We aren't 
sending people to the moon, we're not sending rovers to Mars, 
we're not prosecuting a war in Southwest Asia. We're buying 
commercial off-the-shelf products and services, and so it's an 
easy procurement mission. But for some reason we've decided, 
and we've been following this model for a long time, that it's 
just too hard for us to put contracts in place in accordance 
with the law.
    So I would say leadership is the lacking ingredient.
    Mr. Coffman. And, Mr. Murray, on January 8, 2013, Glenn 
Haggstrom informed the Deputy Secretary and VA Chief of Staff 
of, quote, ``significant problems in how purchasing was being 
done,'' unquote, basically outlining that contracts weren't 
being created and purchase cards were being misused.
    On January 9, 2013, Mr. Frye published rules for proper 
prosthetics procurement in VHA, but VHA is still circumventing 
the rules, regulations, and law. Why? And I want to remind, you 
are under oath.
    Mr. Murray. I'm not aware of any circumvention that VHA is 
involved in. I will tell you that we have stringent controls 
over our card program and we've made them more stringent since 
2012. We ensure that everybody that purchases under the card 
for authorities greater than the micro-purchase threshold do 
have a valid contracting warrant.
    But as Mr. Frye will tell you, possessing a valid 
contracting warrant requires a high degree of training and a 
high degree of responsibility. So I think that it would be 
something that would be in the procurement space in terms of 
whether those contracts are valid or not.
    Mr. Coffman. Okay. Well, Mr. Murray, I have a copy of the 
email right here in front of me, and it says--again, from Mr. 
Haggstrom to Mr. Gould--prosthetics on purchase cards have 
significant problems in how purchasing was being done by non-
1102 prosthetic folks holding a warrant. Essentially, there 
were no contracts in place.
    Mr. Frye, why are the laws and regulations being broken by 
VHA procurement?
    Mr. Frye. In the particular case that you bring up, at the 
end of that year, at the end of 2012, I discovered by chance 
that there was an organization, VISN 3 in VHA, that had 
obligated over $50 million in procurement buys without 
contracts. That led me and my staff to believe that the problem 
might be a lot larger.
    As we began to look into it, we discovered wholesale abuse. 
What we discovered was that VHA had warranted contracting 
officers, over 1,100 of them, but these contracting officers 
were not putting contracts in place, they were simply using 
their warrant as their justification to call vendors, order, no 
matter what the amount, and pay for those particular purchases 
with the government purchase card. Of course, that is illegal. 
A contract must be in place before the purchases are made.
    What we accomplished immediately, after some pushback from 
the senior leadership of VA, is we put a temporary provision in 
place that allowed VHA personnel, non-1102s, because they were 
very, very short of qualified people, that the non-1102s were 
allowed to place contracts in place up to $25,000, but they had 
to be supervised by a qualified 1102 contracting officer. From 
$25,000 up to the simplified acquisition threshold of $150,000, 
Mr. Doyle required 1102 contracting officers to put those 
contracts on file.
    So we had to come up with a system to try and mitigate the 
damage that had been in place. And these weren't events that 
just emerged. These were events that had taken place for 
probably many years and probably billions of dollars spent 
without benefit of contracts.
    I remember the first instance that I heard, I was in the 
Washington hospital, and one of the senior prosthetics 
personnel stated that they had ordered a $143 prosthesis and 
paid for it with a government purchase card. And I then asked: 
So you had a contract? He said no. That was the first 
indication of this malfeasance.
    Mr. Coffman. Thank you, Mr. Frye.
    Mr. O'Rourke. you are now recognized.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chair.
    In the little time that I have, I'm going to try to see if 
we can shed some light on how bad this problem was and perhaps 
still is, who has been held accountable that was responsible 
for these problems, whether or not the necessary fixes are in 
place, and then, if we have time, what concerns we have going 
forward.
    So to get to how bad this was and perhaps still is, Mr. 
Frye, you said that these lack of safeguards and controls in 
the practices at the VA when it came to the purchase card could 
have led to serious harm or death. Do we have any specific 
examples of that being the case?
    Mr. Frye. I don't know of any examples, but certainly 
without the safeguards that are included in contracts, you're 
open only to the largesse of the suppliers. For instance, that 
$142,000 prosthetic that I just mentioned, if that prosthesis 
broke the day after we bought it, we've got to rely on the 
contractor to make good, because we have no contractual 
provisions to force him to make good.
    Mr. O'Rourke. I understand and I share your concern about 
that.
    But beyond speculation, Ms. Halliday, do we have with any 
evidence that this practice has caused serious harm or death?
    Ms. Halliday. I don't have absolute evidence that it has 
caused harm or death. I think what we always see is the 
practice is justified because of lack of planning, and it's 
just the easy course. And it seems that to try to get 
compliance VA-wide, enterprise-wide to ensure that everyone is 
taking the proper precautions just doesn't occur.
    Mr. O'Rourke. Okay.
    And for Mr. Murray, can you tell us about what you've done 
to hold those responsible accountable? I think that has been a 
recurring necessary theme on this committee. More than 
resources, I think the VA needs accountability. So could you 
address that?
    Mr. Murray. Yes, sir. Thank you for the question.
    So upon the Charge Card Act of 2012 being implemented, we 
worked with our partners in Human Resources to come up with a 
table of offenses for misuse of either the travel, the 
purchase, or the fleet card. First offense is, in that table of 
penalties, is admonishment all the way to removal.
    Mr. O'Rourke. And has anybody been admonished or removed?
    Mr. Murray. We have reported in the three semi-annual 
reports, two removals, two dismissals.
    Mr. O'Rourke. Two removals related to this problem?
    Mr. Murray. To misuse of a card.
    Mr. O'Rourke. Great. And then if I heard you correctly, Mr. 
Murray, you said that all of the outstanding OIG concerns were 
addressed and closed as of April 2015. Did I hear you 
correctly?
    Mr. Murray. From the unauthorized commitment report that 
they issued in 2014, we closed all those recommendations 
working with the Office of Acquisitions and Logistics.
    Mr. O'Rourke. Okay.
    And, Ms. Halliday, would you care to comment on that? Does 
OIG have any outstanding concerns, and do you agree with Mr. 
Murray's conclusion on that?
    Ms. Halliday. Mr. Murray's team fixed the controls to our 
satisfaction. That's why we closed those recommendations. 
However, you have to have compliance with those controls or you 
still have serious problems. This is the area I think VA really 
struggles with.
    Mr. O'Rourke. And would you care to comment on Mr. Frye's 
statement about how narrow your focus was in addressing some of 
the issues that he has unsuccessfully, it seems, tried to bring 
to the attention of senior VA leadership and whether that 
warrants expanding OIG's investigation of the Purchase Card 
Program?
    Ms. Halliday. When we decided to take a look at the 
purchase cards, we scoped out specific objectives. The issue 
that Mr. Frye is talking about is putting contracts in place, 
and I have other teams that look at contracts.
    The reason we narrowed our focus at the time was VA was 
moving forward to put an integrated operating procedure in 
place to build quality into its contracts. It had put a QA 
program and these, I think if I get it right, the head 
contracting officials would be monitoring the contracts. We 
thought at some point as that started to take hold we would see 
some improvement in this. We had tested those controls and they 
worked when they were used. Unfortunately VA, in our other work 
that we did, we found that they just circumvented the controls 
or ignored them.
    Mr. O'Rourke. And then just briefly, Mr. Frye, going 
forward, can you comment on any change you've seen in 
leadership related to these control issues, accountability, and 
ensuring that we're safeguarding taxpayer dollars under this 
new administration, under Secretary McDonald, compared to 
Secretary Shinseki?
    Mr. Frye. Let me just relate that several months ago I was 
asked to visit three VA healthcare centers. The last one we 
visited remarked that they had just discontinued this illegal 
practice in October of 2014. They were supposed to have 
discontinued this illegal practice in January of 2013. That's 
as far as we've dug into it, but I can assure you that if we 
were to do an investigation, a full investigation, we would 
find that many of these issues still exist.
    I provided to this subcommittee a document that shows the 
potential for $1.2 billion spent without contracts paid for 
with the government purchase cards for fiscal year 2013 and 
half of fiscal year 2014. That information was obtained by us. 
We hired a supplier to come in and help us out. No 
investigation has been made into these potential unauthorized 
commitments. So I would say based on that, they said they 
stopped, but they continued.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    Mr. Coffman. Dr. Roe, you're now recognized for 5 minutes.
    Dr. Roe. Thank you, Mr. Chairman.
    I think, first of all, Ms. Halliday, if I could get your 
address. You're here so much, I want to send you a Christmas 
card. Okay? You seem to be here so much in front of our 
committee.
    Ms. Halliday. I would appreciate that.
    Dr. Roe. Anyway, one of the things that has been brought up 
is trust. And we look at the Veterans Choice Card, yesterday we 
held a hearing, problems. We look at VA hospital construction. 
We look at now this purchase card. This reminds me of a story 
you're going to see about every year in the local newspaper of 
the secretary at the church that has the credit card and 
overspends and finally gets caught sometimes. That's what this 
reminds me of.
    And you've got 2,000 cards out there without supervision. 
Most of these employees are honest people. I certainly 
understand that. They are. They're not going to do anything 
wrong. But without oversight, it just opens itself up for 
abuse, I think. And I think that's what we're hearing, that 
this has occurred. And we don't know how deep it is because we 
haven't delved into it as deeply as we probably should.
    Let me tell you what happens in the private world of 
Medicare. As a physician, if I go out and pull some of the 
stuff that happened here, I end up in a Federal pen. There are 
huge penalties against what we've done and what has happened 
here without contracts. If you do that in the private world 
under a government contract with Medicare, you're in deep 
trouble in the private world.
    I have heard maybe two people lost their positions from 
this. And that continues to be a problem with the VA, is no one 
is held accountable when these egregious events occur. And it's 
just business as usual.
    And, look, I get it. It's a whole lot easier to take your 
credit card and just purchase something than it is to go out 
and get a contract. That's a lot simpler to do and you 
circumvent a lot of issues and problems, but it's not the way 
the business needs to be done.
    And I'll get to a question.
    Mr. Frye, Colonel, thank you for your service. In any of 
the reviews you've conducted, have you found examples of 
unauthorized purchase cards used in retail businesses like 
Amazon or PayPal or things like that?
    Mr. Frye. As a matter of fact, when this subject first 
emerged in October of 2013 we did hear that there were some 
charges made in the VA central office for PayPal, Amazon.com, 
and, as I recall, some steakhouses, and there seems to have 
been one other, which I can't remember. I don't know whether 
those were adjudicated, but the head of the contracting 
activity at that time in the VA central office informed myself 
and Mr. Haggstrom of these issues.
    Dr. Roe. And, Ms. Halliday, did the OIG find any 
inappropriate purchases to retailers?
    Ms. Halliday. In our annual risk assessments we 
consistently identify transactions we think are high risk or 
suspicious. We had teams go out and look at some purchases 
where we identified in Las Vegas where there was rooms at 
casinos, there was alcohol purchased, things like that. And as 
they drilled down, and this is very resource intensive, we 
found a preponderance of transactions that were made for 
veterans. Happened that the liquor store, the shuttle bus was 
right near the hospital, they were filling up gas there. The 
casinos, the veterans placed in those rooms at night had gone 
through chemotherapy and they were too sick to drive home.
    So it's very hard to find where you find absolute fraud and 
the intent for personal gain. And that's why I think so many of 
these ratifications are occurring, because the VA has gotten 
the benefit. There are costs associated with that, excessive 
prices, things like that.
    When we find an issue that we absolutely think is fraud, we 
hand it over to the Office of Criminal Investigations, and 
Quentin's group would take that, and that is also very resource 
intensive.
    I'd like to ask him to talk to an issue up in East Orange 
that I think you might.
    Mr. Aucoin. We conducted an investigation in East Orange. 
We had a senior supervisory engineer that had brought in a 
contractor of his choosing. And there are two parts to this. 
Part of this was a service-disabled veteran-owned business 
fraud, but also there was a huge element of purchase card 
fraud. There were a lot of transactions set up to be below the 
thresholds for additional scrutiny, and they processed so many 
that we had about $3.4 million of purchase card fraud at this 
facility.
    That case is now pending sentencing. There has been a 
conviction. And the splitting of purchase cards was one of the 
ways they used to conceal this. And upon conviction, we brought 
in our audit group, and they're doing some follow-up work to 
see if they've cleaned up their act, but also this is something 
that we can certainly look at, at other facilities.
    Dr. Roe. So the more you continued to drill down, the more 
you found, is what I'm hearing.
    Mr. Aucoin. Yes. Absolutely.
    Dr. Roe. I don't think we started the buzzer. I've had more 
than adequate time. And I just want to finish by what Colonel 
Frye said. What happened to duty, honor, and country? Yield 
back.
    Mr. Coffman. Ranking Member Kuster, you are now recognized.
    Ms. Kuster. Thank you very much, Mr. Chair. And I 
apologize. I was at a markup in the Ag Committee.
    So thank you all for being with us. And Mr. Frye certainly 
shared my shock reading The Washington Post this morning with 
my colleagues on both sides of the aisle. I am concerned, 
though, about allegations, and maybe it was misquotes, but it's 
a pretty severe allegation to say that people might have died 
for this, and I think if we don't have examples of that, it 
would be best not to sort of catastrophize. But I do understand 
that this is a serious problem.
    So I want to drill down a bit, if I could, and either for 
Ms. Halliday or for Mr. Frye, if you have further information 
on this. I want to drill down on the thousands of 
pharmaceutical purchases and prosthetic purchases without 
contract files to document the purchases, whether they were 
included in this figure of 15,600 unauthorized commitments in 
the IG report. If you know the answer to that, that would be 
helpful.
    I'm trying to narrow the universe as to what is the most 
typical transaction and how this committee, subcommittee, can 
narrow in on changes to improve procedures going forward. So if 
you could, pharmaceutical purchases and prosthetics.
    Mr. Frye. Let me start with pharmaceuticals. I don't know 
that we have any issues in pharmaceuticals right now. We have 
issues that were reported to this bigger committee, the entire 
committee back in 2012.
    Back in 2011, in December of 2011, to be exact, the 
Secretary wrote a letter to Congressman Donnelly and said that 
our illegal activities had ended. Between December 2011 and 
August of 2012, the VHA self-reported 9,700 illegal 
transactions in the purchase of pharmaceuticals. Those 
transactions were never reported to Congress that I know of, 
they were swept under the rug.
    And, frankly, when a report was submitted by Mr. Haggstrom 
and others, and some of the people at the table were 
signatories on that report, they simply omitted those figures 
on a document that was presented to the Secretary to tell him 
about the health of the Department of Veterans Affairs. I 
consider it an absolute lie. It should never have taken place. 
I was not a signatory on the document, for obvious reasons.
    Now let me go to prosthetics. Prosthetics, as I stated 
earlier, we found in 2013, at the same time, and I may have my 
years confused here because I don't have notes in front of me, 
but at the same time we found that we had 2,000 purchase cards 
that had been provided to personnel who didn't have authority 
to use the purchase cards over the $3,000, we at the same time 
discovered that prosthetics personnel were buying prosthetics 
without contracts. They were simply making phone calls to their 
suppliers and buying prosthetics and then liquidating that 
obligation with a government purchase card.
    In a normal situation where you have a contract and you buy 
something, that something is verified by the receiver, usually 
a contracting officer representative or somebody in the 
hospital, they check the block and say, we got it. That receipt 
then goes to the finance center. The finance center takes a 
look at that receipt that's now payable and they confirm that 
there is a legal obligation for that product.
    If there is not a legal obligation, in other words, if they 
don't have a contract number, they get ahold of the person that 
was responsible and tell them: We've got a problem here. We've 
got an unauthorized commitment. A ratification has to take 
place.
    By using the cards, the purchasers simply ignore that 
process. They're able to liquidate that unauthorized 
commitment, no pain, no stain, nobody ever knows. The only 
people who would know are the people that run the Purchase Card 
Program or the people that run the contracting program in the 
organization where those infractions are taking place. And 
that's what's happened in----
    Ms. Kuster. Is there----
    Mr. Frye. Go ahead.
    Ms. Kuster. I want to understand. Is there any record of 
the prosthetic? Because, I mean, we had a hearing recently 
about trying to keep track of an identification. So for recalls 
and the like, you're telling me there's no paperwork, there's 
no file, there's no record of this purchase other than perhaps 
the monthly card statement?
    Mr. Frye. There was undoubtedly some record of the 
purchase, because they paid for that purchase with a purchase 
card, but there is supposed to be a contract. Federal law 
requires contracts be put in place for all requirements above 
$3,000. They must have a contract in place. Something as simple 
as determining a fair and reasonable price can only be made by 
a contracting officer, no one else, by law.
    Ms. Kuster. My time is up. Thank you.
    Mr. Coffman. Mr. Huelskamp, you're now recognized.
    Dr. Huelskamp. Thank you, Mr. Chairman. I appreciate you 
calling this hearing on a very important topic.
    A headline in one of the newspapers was $6 billion in 
illegal spending. Mr. Frye, I can't find that figure. What's 
your range guesstimate? $6 billion that I see, $6 billion to 
$10 billion. Which are you suggesting?
    Mr. Frye. Well, first of all, I never intended that 
document to be sent to the press. I intended for the Secretary, 
when I sent it to him 7 weeks ago, my intent was to do what he 
asked us to do, which was to give him information that he might 
be able to act upon.
    Those ranges are there because we know we spend $5 billion 
a year in fee basis care, and that's where you walk--a veteran 
like myself walks into a VA hospital, for instance----
    Dr. Huelskamp. I want to follow up on the Secretary issue, 
but $6 billion, is that the bottom line? Is it $6 billion to 
$10 billion, is that where that figure comes from?
    Mr. Frye. Without a proper investigation, we'll never know.
    Dr. Huelskamp. No, I understand.
    Mr. Frye. But I'm confident that it's at least $5 billion.
    Dr. Huelskamp. Okay, I appreciate that.
    My second question would be, you sent that letter to 
Secretary McDonald. What was the response from his office?
    Mr. Frye. I have not received a response from his office.
    Dr. Huelskamp. Allegations of up to $6 billion in illegal 
spending, and you have had no response from the Secretary's 
office?
    Mr. Frye. I have not had any response from the Secretary's 
office. I know that he received it, because his assistant 
assured me that both he and Deputy Secretary Gibson had 
received hard copies.
    Dr. Huelskamp. I appreciate that.
    And, Mr. Chairman, I don't know who was called in as a 
witness, but I think that's devastating, that these type of 
allegations and no response. Perhaps Mr. Murray is here to 
respond to that. But I want to ask Mr. Murray about another 
issue.
    In Mr. Frye's letter to the Secretary, when did you read 
that letter?
    Mr. Murray. I have not seen that letter.
    Dr. Huelskamp. You're here to discuss this this morning. 
When were you aware of the letter?
    Mr. Murray. I just found out about this letter this 
morning.
    Dr. Huelskamp. How did you find out about it?
    Mr. Murray. Through discussions with people here.
    Dr. Huelskamp. I guess I'm dumbfounded. You're here to 
speak for the VA about allegations of $6 billion in illegal 
spending and you've never seen the allegations?
    Let me ask you about a meeting July 11, 2014. According to 
Mr. Frye, you were at a meeting discussing many of these 
issues. Do you recall this meeting? Were you actually present 
there?
    Mr. Murray. If this was a Senior Assessment Team meeting, I 
was.
    Dr. Huelskamp. Okay. Did you keep notes of this meeting?
    Mr. Murray. I do.
    Dr. Huelskamp. Will you provide those notes to the 
committee?
    Mr. Murray. I absolutely will.
    Dr. Huelskamp. Okay.
    Mr. Murray. Along with our request to Mr. Frye to provide 
the information he alleged he had from the----
    Dr. Huelskamp. Actually, sir, I make the requests, not you.
    Mr. Murray. Okay.
    Dr. Huelskamp. But I would like to see those notes. Mr. 
Frye alleges that it was proposed by top-level officials that 
violations of the law would continue. Tell me what you heard at 
that particular meeting and were you aware of Mr. Frye's 
concerns.
    Mr. Murray. So Mr. Frye raised his concerns with the CFOs 
at the senior assessment team meeting. The particular item that 
was being--being reviewed at the time he raised those concerns 
was the medical necessity documentation that a physician or 
clinician would provide to authorize care. It was not a 
contracting issue, but he raised the issue of contracting to 
wit we--we said let's get a team together, let's review these 
allegations, let's see the data that you have on this 
particular issue, the----
    Dr. Huelskamp. Did he say he thought the VHA was violating 
the law at this meeting?
    Mr. Murray. I'm sure he did.
    Dr. Huelskamp. Well, I don't know. You were there, I was 
not, Mr. Frye was there. Did he say that?
    Mr. Murray. Yes, I believe he probably--yes, I would say he 
did.
    Dr. Huelskamp. Okay. Well, we'll find that in the notes 
where you referenced it. Did you do anything with that 
information? Now you're in a position to do something with it, 
I guess, for 5 weeks now.
    Mr. Murray. We did. We--so based on that meeting, we put 
together a work group to--to review these allegations. They 
were serious allegations. The work group did meet with VHA. Jan 
Frye did not attend, so the idea was to get to the bottom, to 
get the data that apparently would either substantiate or 
refute these allegations.
    Dr. Huelskamp. I hope you can provide that to the 
committee. Last question would be, I guess, for you, Mr. 
Murray, I'm about out of time for the first round. How many 
active purchase cards are available to VA employees?
    Mr. Murray. I believe the number is about 25,000.
    Dr. Huelskamp. 25,000 cards. How many employees are 
authorized to use 25,000 cards? Is that the same number or is 
it----
    Mr. Murray. No, no, fewer employees have cards. So total 
cards is 25,500, roughly.
    Dr. Huelskamp. I would like documentation of that.
    Mr. Murray. Sure.
    Dr. Huelskamp. How many employees are using----
    Mr. Murray. I have 23,000 cardholders.
    Ms. Rice. How many?
    Mr. Murray. 23,500 cardholders--25,515. I mean, the number 
is ballpark, but cards.
    Dr. Huelskamp. And are you able to indicate how many 
dollars of annual purchases are on these 25,000 active cards?
    Mr. Murray. $3.74 billion is spent, of which 98 percent is 
the health administration.
    Dr. Huelskamp. Okay. Who is the card--the company that 
issues those cards, who's the vendor for that?
    Mr. Murray. That's U.S. Bank.
    Dr. Huelskamp. U.S. Bank. All right. I yield back to my 
next round of questions, Mr. Chairman.
    Mr. Coffman. Thank you, Mr. Huelskamp.
    Ms. Rice. you are now recognized.
    Ms. Rice. Thank you, Mr. Chairman.
    Mr. Frye, I want to start with you. So these cards that are 
issued, whoever is issued those cards is able to make a 
purchase up to $3,000 just without any record kept; is that 
correct?
    Mr. Frye. The purchases made up to $3,000 are called--are 
called ``micro purchases.'' There are records kept. The 
purchase cardholder must keep records, and then the purchase 
cardholder has someone who provides oversight to that 
cardholder, and normally these approving officials, or 
authorizing officials, have a number of cardholders under them, 
so records are kept.
    Ms. Rice. Okay. So anything over 3,000----
    Mr. Frye. I'm sorry?
    Ms. Rice. Anything over--any purchase over $3,000 requires 
a contract?
    Mr. Frye. That's correct. Every purchase over $3,000 
requires a contract. The card can be used above $3,000 to pay 
for those products that are bought under a contract, but it is 
not a contractual instrument. A contractual instrument must be 
in place, by law, above $3,000.
    Ms. Rice. And who enters into that contract? The 
cardholder?
    Mr. Frye. No, cardholders, unless they're also----
    Ms. Rice. There has to be an existing contract within VA.
    Mr. Frye. There has to be a contracting officer above----
    Ms. Rice. Got it.
    Mr. Frye [continuing]. $3,000.
    Ms. Rice. Okay. So the one think I'd--I just want to ask 
you very quickly. The--in New York, obviously I'm from New 
York, so I was a little surprised at this, there was recorded 
$50 million in prosthetic purchases in increments of $24,999, 
which is $1 under the charging limit on each card. Is that--and 
maybe I should direct this question to you, actually, Ms. 
Halliday, is that a red flag?
    Ms. Halliday. It's definitely a red flag. We look at the 
splitting of orders. This is part of the problem in one of the 
high-risk areas that I identified that we focus on the 
transactions and try and take a closer look.
    Ms. Rice. So did you take a closer look at this instance of 
all the----
    Ms. Halliday. No, I was unaware of the example that Mr. 
Frye put out there.
    Ms. Rice. Would you be able to go--I mean, upon a request 
of this committee.
    Ms. Halliday. Obviously we could look at that, and we would 
want to do that. I've stood up an entire new financial 
integrity team to put more oversight under these purchase cards 
because the value of the purchase cards is just skyrocketing, 
and I never saw that the controls were getting strong enough to 
make sure that the program was run effectively.
    Ms. Rice. Well, to me, that's a major red flag, and I 
appreciate your willingness to go back and look at that. You 
made a statement before the controls were fixed, but the VA--by 
the VA, but that compliance is still something that the VA 
struggles with. In your opinion, why?
    Ms. Halliday. Holding people accountable to make sure that 
they really execute their job. I think, in many cases, 
purchases made using the purchase cards, they always say, well, 
they needed to get immediate services to the veteran in the 
medical center. And then when you look at the type of purchase, 
you're like, really, that's just not the case.
    It's lack of planning, but by using a purchase card is a 
quicker method to get the goods and services into the medical 
center.
    Ms. Rice. That's if you're using it to purchase goods and 
services.
    Ms. Halliday. Correct.
    Ms. Rice. Okay. So----
    Ms. Halliday. You know, we--we struggle with when there is 
fraud, a lot of times the documentation is just not there, or 
the audit trail to really look at it because it's been 
destroyed.
    Ms. Rice. So let me ask you--oh, that's the another thing 
that I want you to look into because when they were asked for 
the records regarding the prosthetic purchases in New York, 
they were told that all the records were destroyed by 
Superstorm Sandy----
    Mr. Coffman. Is that right?
    Ms. Rice [continuing]. And they have not been--right? And 
they have not been able to document that to--I mean, we don't 
know that that's true. So maybe you could also inquire into 
that as part of looking into that.
    So I'm just going to ask you two questions to see if you 
can give a specific number. In the past 2 years, how many 
instances of fraud, waste, and abuse with purchase card use 
were found by you?
    Ms. Halliday. I can't get that number. I have to submit it 
for the record.
    Ms. Rice. Okay. So that, and what was the percentage of 
fraud, waste, and abuse found out of the total number of 
purchase card transactions during this time period as well? 
That would be great if you could look into that as well and get 
that number to us.
    So, Mr. Murray, I just have one question for you, and this 
is just an observation that I have made, and it's very 
disturbing. I understand that you were sent here and I 
understand that you have a role to play, but I have--I don't 
think I have ever seen a member of the VA come before this 
committee in the relatively short time that I have been here. 
I've been here for about 5 seconds, right, but I haven't seen 
one member of the VA come and talk about whistleblowers and how 
they're treated, a lack of retaliators being held accountable, 
this allegations of waste, fraud, and abuse with all this 
money, and show any level of outrage. Can you explain that to 
me?
    Mr. Murray. I am outraged. If the allegations are correct, 
I am very outraged, and we take our program responsibilities 
very seriously. We closed the IG recommendations in a year. I 
meet with Ms. Halliday and her team quarterly.
    Ms. Rice. So your response to her saying that while you 
have--controls were fixed by the VA and yet she still sees a 
difficulty in compliance by the VA, what is your response to 
that, and maybe you can--do you have a reason for the lack of 
compliance?
    Mr. Murray. When we meet with the IG on a quarterly basis, 
we take everything seriously. We look at these compliance 
issues, but a lot of what we see is personal responsibility at 
a local level.
    For instance, let me explain. So a cardholder doesn't make 
a purchase by themselves. They have to get their supervisor or 
approving official to approve it. That approving official needs 
to reconcile those transactions with U.S. Bank and certify 
they've reconciled them at the end of every month.
    We review those reconciliations and follow up with the 
field for those self-approving officials that have not been 
executing their fiduciary responsibilities. So, you know, we 
put in place at the departmental level every detective control 
and strong policy on people's responsibilities. For instance, 
the cardholder is supposed to keep records of all the receipts. 
The approving official is supposed to ensure that that--those 
items were, in fact, receipted for, received for, and that they 
were good goods.
    So there is a hierarchy of--of strong policy requirements 
to have a card. In fact, you have to take training to get a 
card, not just on the card itself but on authorized 
commitments.
    Ms. Rice. No, I understand that, but clearly those systems 
are not working. Just Mr. Chairman, with your indulgence. I'm 1 
of 10 kids. If my parents gave all of us a credit card, none of 
us would have gotten a college education, and that's 10 people. 
You're talking about 25,000--35,000--25,500 credit cards. I 
think that has to be looked at as well. That number is just 
enormous.
    Thank you, Mr. Chairman.
    Mr. Coffman. Thank you, Miss Rice.
    Ms. Walorski, you are now recognized.
    Ms. Walorski. Thank you, Mr. Chairman.
    Mr. Murray, I just have to ask. You know, I guess to echo 
many of the things that have just been said here, we have--I've 
been on--this is my third year on this committee, and the 
questions I get asked at home after people watch these hearings 
on C-SPAN, Americans are listening, Americans hear this, 
Americans are at the table, and the expectation for 
transparency and accountability has never been higher in this 
country, and it's been a year since we've had a transfer of 
Secretaries, but the requirements of the American people are 
enough's enough.
    And what I get asked when I go home is this question: How 
do you guys individually not have a gut check on doing right 
for the sake of right? So Mr. Frye identifies this, he comes 
and he talks about it, and you are aware of it. You stand under 
a subpoena in front of a committee that has heard these same 
stories in just about every area of the VA for 3 years and 
longer. Mr. Frye talked about having issues longer than I've 
been here, and doesn't--didn't you have a gut check when these 
allegations came up that even though the VA has been operating 
illegally for all these years, that when it's on your watch, 
that something in your gut says, ``You know what, we have to 
stop this, this is wrong, it's illegal activity,'' did that 
ever dawn on you that this is illegal activity?
    Mr. Murray. We have strong--we have a group of--the office 
of business oversight that actually goes out and checks these 
things.
    Ms. Walorski. That's not the question, and the question 
isn't about the work group. Mr. Murray, do you now think that 
what was going on in the place that you worked was wrong and 
that some day, with all the oversight going on with the VA, 
you're going to sit here under oath with a couple of hours' 
notice and you're going to say what to the American people? Do 
you think what happened is wrong?
    Mr. Murray. So, you know, we've spoken to our office of 
general counsel. I've spoken to contracting officials in the 
health administration. There are different views.
    Ms. Walorski. What's your view, Mr. Murray? You're 
employed, you're under oath to stand here and represent the 
entire Veterans Administration. You are sitting here telling us 
what? This is okay? You were compliant with it? It's wrong, you 
knew it, you agree with Mr. Frye? What's your gut say about it?
    Mr. Murray. My gut is that the--a lot of different parts of 
the organization have looked at this issue and that there are--
are different views on this issue.
    Ms. Walorski. Mr. Murray, I'm asking you.
    Mr. Murray. And it is a complicated issue.
    Mrs. Walorski. With all due respect, you're representing 
the VA today. I have, you know, three-quarters of a million 
people that pay me to do a job, and the job is to ask you, 
because America's up to here, right, with many areas. You are 
sitting here today, and you're saying what? Do you believe this 
is right or wrong? Are these allegations right or wrong? What 
does your gut say? It sounds like you're taking the Fifth.
    Mr. Murray. So--so--but my--so what I do know is that 99 
percent of these purchases above $3,000 are prosthetics and 
sensory aid purchases, and there is ambiguity in those type of 
purchases, what the controlling legal authority, I thing is 
what they call it, Norb, is. And under the Choice Act, for 
instance, and I think there's legislation up here now to 
provide the VA some flexibility on how we--how we procure, at 
least care in the community in this case. And so the whole--the 
whole issue to me is there is no--there are differences in 
opinion from very, very senior people on.
    Ms. Walorski. Sir, I understand that. Were you afraid of 
losing your job if you identified this? Were you afraid of your 
job security of raising flags?
    Mr. Murray. I am trying to give you the--I'm giving you the 
answer that--there are different people at this table, you 
would get a different----
    Ms. Walorski. But I'm not asking the other people at the 
table, sir. We have an inspector general who has been reliable. 
We have a whistleblower who I thank again for every 
whistleblower that comes in here. We are trying to get to the 
bottom of this to help put the pieces together because we want 
the VA to work.
    So my question is, is this right or wrong? What does your 
gut say? I'm going to take that as you're taking the Fifth, and 
I guess, you know--Mr. Frye, I want to again thank you for the 
multiyear commitment you've made to this, and our district, 
obviously, is very active. I mean, the second district now as 
well, and we are very active because of the amount of veterans 
and families we have. But I think that when America sees this 
kind of response, you know, again it begs the question from 
you, has this department that Mr. Murray been involved in, have 
they done enough to correct this issue? Do you see the remedial 
steps they've taken as being enough?
    Mr. Frye. Absolutely not. I brought these issues up time 
and time and time again. Those of us who bring these issues up 
are scorned, shut aside. For the last 4 years I have--I have 
been shelved because I--because I went to Senator Donnelly----
    Ms. Walorski. Yes.
    Mr. Frye [continuing]. Then Representative Donnelly and 
reported the wrongdoing in the VA. I guarantee you that those 
who--those of us who want to do right are shoved to the side. 
And that is what's happened over at the last 4 years. But I've 
been--I've got record after record where I've addressed these 
issues in emails. There are people that have heard me say this 
below VA about these issues in meeting after meeting after 
meeting, and people simply don't want to hear it.
    Ms. Walorski. I appreciate it. I yield back my time, Mr. 
Chairman.
    Mr. Coffman. Chairman Miller.
    Mr. Miller. Mr. Coffman, I would yield my time to Mr. Walz 
first, and then I----
    Mr. Walz. I will pass to you, Jeff. Thank you.
    Mr. Miller. I hope VA is embarrassed, ashamed at the way 
they treat the people that try to bring problems forward. I'm 
tired of hearing the same thing over and over and over again 
from the VA. Nothing is changing. Regardless of what leadership 
is telling this committee, nothing is changing.
    I talked with the Secretary, and he says, you know, this 
committee needs to quit looking in the past. We need to look at 
where VA is going. I don't trust where they're going. I don't 
think you know where you're supposed to go. The whole idea is 
to serve those who have served this Nation, not to build a 
bureaucracy that serves itself.
    I came into this hearing because I had been monitoring on 
my television in the office, and I couldn't believe the lack of 
specificity that we were hearing, how poorly people have been 
treated. The Office of Inspector General has a job to do, and 
sometimes we get crosswise with them, but that's okay. But on 
this instance they are dead on the mark. And to let this 
continue on and on and on and not be furious about it defies 
anybody's rational thinking. And I hope the Secretary hears 
back from you that this committee is not going to take any more 
steps of faith with the VA.
    Our patience is gone. The American public's patience is 
gone, and the veterans of this country are not being served 
appropriately. So Mr. Chairman, thank you and to your ranking 
member for holding this hearing, and I'm sure that there will 
be more than just this. I am speechless, absolutely speechless. 
I yield back.
    Mr. Coffman. Thank you, Chairman Miller. Dr. Benishek, you 
are now recognized.
    Dr. Benishek. Thank you, Mr. Chairman. Well, I, too, am 
truly amazed by the testimony that we've heard here today, and 
I think it brings to mind, frankly, for me, a piece of 
legislation that I have been trying to get forward here, and 
that is to--when the Office of Inspector General identifies a 
problem with the VA, it seems like there is nobody in charge of 
solving the problem.
    So I'm trying to have a piece of legislation that makes--
identifies an employee who is supposed to deal with the IG 
report, identifies them by name, and then makes them comply to 
the IG report within 30 days or that person gets disciplined. I 
mean, I think that's a reasonable thing, because right now, we 
have Ms. Halliday talking about stuff, we have Mr. Frye, but 
nobody seems to be the person in charge of fixing it. That's--I 
see as a common theme whenever this stuff comes up here in this 
committee.
    Ms. Halliday, do you think that's a reasonable idea that--I 
mean, a lot of times the VA will agree with your findings and 
never act on it. Do you ever see that happen?
    Ms. Halliday. Absolutely. First, when we give them 
recommendations, we believe that they're telling us in good 
faith what their corrective actions plans are, and what their 
implementation schedule is. The reason we do follow-up is to 
find out if the actions have been effective. So we see that all 
the time.
    Dr. Benishek. You know, the----
    Ms. Halliday. As far as----
    Dr. Benishek. Yes, go ahead.
    Ms. Halliday. As holding someone accountable, I would want 
to tie it to the senior official or the program official 
responsible, not just a person in administration.
    Dr. Benishek. Yes, well, I want to see some somebody's 
name, because otherwise they all say, well, nobody ever took 
care of this, and it wasn't me who was responsible for it. And 
this is in response to IG reports that have gone over 30 years 
as far as physician recruitment that you've made 
recommendations like eight times in the last 30 years. The VA 
has agreed with you, but they never implemented the changes 
that you recommended over 30 years, and this is just another 
example of nobody being responsible for doing anything to fix 
this problem.
    And Mr. Frye, I must congratulate you on your efforts. I'm 
very disappointed in Mr. Murray's testimony here today, but 
just as--I agree with the chairman, this is just outrageous and 
another example of what's going on here, and my disappointment 
for the administration here is exceedingly high at this point. 
I yield back.
    Mr. Coffman. Thank you, Dr. Benishek.
    And Chairman Miller, you had mentioned another hearing on 
the topic of procurement, and this subcommittee will hold 
another hearing on the 1st of June.
    Let me just say, Mr. Murray, I think you're one of the 
reasons why Secretary McDonald is failing. Simply because of 
the fact that he's unwilling, when he came aboard, to remove 
what I would consider the deadwood that is not leading this 
agency, and you're absolutely doing nothing to make a 
difference on this issue, and I--I'm very disappointed in your 
testimony today and in your conduct in this committee. Okay.
    Mr. Frye, can you speak to the potential that one person 
might be buying, paying, and receiving goods in VA and what 
pitfalls that creates?
    Mr. Frye. Absolutely. We need a separation of duties. If, 
for instance, a person is issued a card and if that person buys 
a product with that card, and then pays for the card at the 
same time, there's a chance for waste, fraud, and abuse.
    So, for instance, if we have a contracting officer who also 
has authority to pay above the $3,000 threshold, and they write 
a contract and products, let say, are delivered, let's say for 
the sake of argument they're televisions and they have those 
televisions delivered to their house and they're also able to 
pay for those televisions, perhaps no one would ever catch that 
problem. So we must have a separation of duties.
    Mr. Coffman. Mr. Murray, in your testimony you indicated 
that VA employees made 6.1 million transactions in fiscal year 
2014. Does U.S. Bank card charge a transaction fee?
    Mr. Murray. They do, but we receive rebates for every 
charge that VA makes.
    Mr. Coffman. So is there a net cost to the taxpayer?
    Mr. Murray. There is not. In fact, we got $75 million in 
rebates back to the appropriation from which those costs came 
from last year in fiscal year 2014.
    Mr. Coffman. So it's a real benefit to U.S. Bank Corp then?
    Mr. Murray. Excuse me, sir?
    Mr. Coffman. So it's--you see it as a benefit to the VA?
    Mr. Murray. Sir, the card program was established primarily 
for small items below the micro purchase of $3,000 threshold.
    Mr. Coffman. We know that's not happening. We know that 
they are breaking the purchases up and doing things that were 
in violation of current law. We know that; is that correct?
    Mr. Murray. We have examples of it.
    Mr. Coffman. We know that. Mr. Murray, in 2012, VA 
confirmed that employees were using purchase cards even though 
they did not have the legal authority to obligate the 
government or to use the cards.
    Given the risk to VA, as the OIG can attest, why is VA 
allowing this practice to continue, and why is no one being 
held accountable for breaking regulations in the law?
    Mr. Murray. So VA, we took strong measures upon learning of 
this, so in 2013, the only way an individual, a cardholder can 
hold a card is if they have a contracting warrant. And we now 
check the warrant before the individual gets the card to make 
sure they have the warrant before they get the card with the--a 
threshold above $3,000, and we also check on a periodic basis 
to ensure that they haven't left the agency, they haven't left 
their position, their warrant hasn't changed, so we put a 
strong control there in that only warranted officials, 
contracting officials, can purchase above the micro purchase 
threshold.
    Mr. Coffman. Mr. Murray, we have evidence that there are 
people that do not have the authority that you have stated that 
they have that are still using those credit cards. Are you 
aware of that?
    Mr. Murray. I am not.
    Mr. Coffman. Do you go out of your way to become unaware?
    Mr. Murray. No, sir. We do these checks on a weekly basis. 
We rely on the Office of Acquisitions to provide us accurate 
and complete warrant information. My staff very diligently 
check the cardholder or thresholds against those warrants, so 
no--and the minute we determine that someone no longer has a 
warrant, we reduce the card to a dollar and then close it if 
they can't produce it.
    Mr. Coffman. Mr. Frye.
    Mr. Frye. Yes. Let me respond to that. It is important, 
it's absolutely essential that whomever has a card with 
authority above $3,000 has a warrant, but that's only one of 
two elements. The other element is, is there a contract in 
place? The card is issued for a single purpose, above $3,000, 
and that's to pay the bills, so to speak, for products that are 
purchased through this contract.
    So I applaud the improvement in making sure that people 
have warrants, but what we've got to do is make sure the 
contracts are put in place as well, and that is the piece that 
has not been looked at effectively. We certainly found that 
beginning in December of 2012 and on into 2013 when we put the 
procedure in place so that prosthetics personnel would 
hopefully quit--even though they had warrants, they were 
buying, and buying millions of dollars' worth of products 
without contracts. And hopefully we put that to bed now. But 
again, as I said, I was in a hospital just several months ago, 
and in that hospital they claimed they had just stopped that 
illegal practice in October of 2014.
    Mr. Coffman. Mr. O'Rourke, you are now recognized.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Ms. Halliday, do we have any idea of how these failures 
compare to those that we might find in other Federal 
departments or agencies? In the backup that I read for this 
hearing, there were instances within the Department of Homeland 
Security and the Department of Defense where you had abuse or 
lack of safeguards in purchase cards. Can you shed some light 
on that?
    Ms. Halliday. I think that there's several Federal agencies 
struggling with these same issues. To the extent that they hold 
their purchase cardholders accountable and their approving 
officials, you're going to have differences. I saw that GSA 
ranked their program medium risk the same as I've ranked this, 
and I want to clarify something on that for you.
    I clarified it medium risk because at 2 percent of the 
total value of the purchases, I'd have to find some $72 million 
worth of fraud, and I hadn't found that. My unauthorized 
commitment report was over 2 years, 85, so half of that.
    I do think that our problems are pervasive enough that this 
needs attention. The way to get to that attention is to make 
sure we hold the approving officials responsible. They're down 
at the lowest level looking at these cards, looking at the 
justification, the need, the appropriateness of the buying, and 
I don't see that as happening.
    Mr. O'Rourke. Yes. So perhaps relative to other Federal 
departments, this is a similar problem, and you know, despite, 
I think, some very valid concerns raised by Mr. Frye, we don't 
have any proof yet of specific instances where someone has died 
or been injured because of this practice. You gave us an 
anecdote that helped show us that at least so far, this money 
wasn't used for poker chips and booze. You know, maybe there 
are instances forthcoming that we should know about, but it's 
deeply troubling nonetheless.
    But what makes it absolutely unacceptable is that this just 
follows in a litany of unaccountability at the VA, and it's the 
$1.1 billion overrun in Aurora, it's the Choice program 
yesterday that we heard about which was budgeted to be spent, 
the entire $10 billion within the next 6 months, and we've only 
spent $500 million.
    So it really raises profound concerns about control and 
accountability at the VA, and whether we use your number of $85 
million in the last 2 years that were unauthorized or we use 
The Washington Post $6 billion number, the fact that only two 
people have been disciplined in any significant way, they both 
lost their jobs to this, makes me uncomfortable with where the 
VA is going.
    And I appreciate Mr. Murray's answers to our questions. But 
really we need the Secretary to respond to this.
    And I 100 percent agree with him that we need to be need to 
be focused on the future and getting this right for the veteran 
going forward. But unless we're sure that these concerns have 
been addressed--and I'm not, following all of these instances 
and the hearing today--it's hard to have that faith.
    And when the VA asks us to expedite the purchasing program 
going forward it makes it hard for us to do that. When the VA 
says let's shift a billion dollars over from this account to 
the other, this lack of control and accountability gives me 
some pause in authorizing that.
    So I really appreciate, Mr. Frye, your work on this, Ms. 
Halliday, what you've shed light on, and also hopefully your 
commitment to further investigate some of the issues that have 
been brought up by different members of the committee. I think 
we're all interested in those answers.
    And I think this committee certainly wants to be a 
constructive partner with the VA. I want to find a way that we 
get these things addressed. Because in El Paso and almost every 
other congressional district we are still seeing wait times 1 
year later after Phoenix that have not improved at all, despite 
the billions of additional dollars that have been authorized 
and the hundreds of millions of dollars that have been 
obligated.
    So we really need some significant, bold, dramatic change. 
It has to be in accountability control.
    Ms. Halliday, you mentioned this erosion in the public's 
confidence in the VA. I mean, this is one more cut against 
that. And I'm really worried about this.
    And so look forward to hearing from the Secretary on how we 
can be his partner in getting this fixed, but we need to see a 
demonstration on the part of the VA that they take this 
seriously. So I appreciate everyone's work on this.
    And I yield back, Mr. Chair.
    Mr. Coffman. Thank you, Mr. O'Rourke.
    And after this committee meeting, we'll be distributing 
some reports whereby the Veterans Administration did purchase 
drugs and tissue on the open market and found it to be 
contaminated.
    Dr. Huelskamp, you are now recognized.
    Dr. Huelskamp. Thank you, Mr. Chairman.
    And after 8 weeks since the memo was sent that they 
indicated that there was a mockery of spending rules, I guess 
I'm still stunned that Mr. Murray was unaware of the memo till 
this morning.
    But, Mr. Doyle, you've been here and haven't had the great 
opportunity to answer many questions. When were you aware of 
the memo from Mr. Frye?
    Mr. Doyle. This morning.
    Dr. Huelskamp. This morning.
    Mr. Doyle. I read it in the news clips, yes, sir.
    Dr. Huelskamp. And your position at the VA is what again?
    Mr. Doyle. I am the Chief Procurement and Logistics Officer 
for VHA.
    Dr. Huelskamp. Don't you think you should have seen this 
memo that had allegations of $6 billion in improper spending, 
most of it directly beneath your purview? Don't you think you 
should have heard about this before today?
    Mr. Doyle. It was shocking, the memo, even the existence of 
it, I guess, but I imagine I've heard issues that were brought 
up in the memo before.
    Dr. Huelskamp. Do you have authority over VHA contracting 
officers assigned to procure prosthetics?
    Mr. Doyle. Yes, I do.
    Dr. Huelskamp. In the memo, Mr. Frye alleges that you claim 
to have no such authority. So is that incorrect in the memo?
    Mr. Doyle. Well, a little bit of history, sir. It's really 
a split. Three years ago we came before some subcommittees, I 
believe this one, on what we called the prosthetics transfer at 
the time. For whatever reason, in VA, years ago, people who 
were not contracting officers had contracting officer warrants. 
We started that process to take the warrants back from all the 
people in pharmacy, logistics, sterile processing, and 
prosthetics.
    That was a deliberate process, and we were very deliberate 
about it because we did not want to hurt veterans at the end of 
this process. It's a quality of life issue for an individual 
veteran. We wanted to make sure we did not impact that.
    We finished that process in October 2013. Since that point, 
every procurement above $3,000 in prosthetics is bought by a 
warranted contracting officer. Now, I say that, that's only, 
although that's still close to 100,000 actions per year, that's 
still only 3 percent of the overall prosthetic actions. Less 
than $3,000 are bought by the procurement folks who work under 
the purview of the medical center directors.
    Dr. Huelskamp. Now, I've got concerns about under $3,000. I 
have concerns about over. One thing I'm not clear, I understand 
the $3,000 threshold, but what is the cap per card? What is the 
maximum that can be charged to each card?
    Mr. Doyle. It varies. It depends on what limits that are 
asked for and approved for that individual. There's a $3,000 
cap for an individual procurement usually. It doesn't even have 
to be up to $3,000. But then there are, I think, monthly, 
monthly limits on how much can be procured in total for that 
individual.
    Dr. Huelskamp. What's the maximum allowed on any card? 
Maybe Mr. Murray has that answer.
    Mr. Doyle. Well, if it's a contracting officer who has the 
card, it's the limit of that contracting officer's warrant. If 
it's below----
    Dr. Huelskamp. What is that limit?
    Mr. Doyle. Well, it can vary by the contracting officer.
    Dr. Huelskamp. What's the highest limit?
    Mr. Doyle. Well, the highest is, for contracting officers, 
an unlimited warrant.
    Dr. Huelskamp. Unlimited, there is no----
    Mr. Doyle. Unlimited, yes, sir.
    Dr. Huelskamp. Okay. I had seen some figures somewhere 
about $150,000, but it's unlimited.
    Mr. Doyle. Well, subcontracting officers have a warrant 
that's limited to $150,000, some might be a million. It varies 
depending on the----
    Dr. Huelskamp. On the--and maybe Mr. Murray--we have 25,500 
cards. Is that active?
    Mr. Murray. That's correct.
    Dr. Huelskamp. And do you know the cumulative limit of 
those cards?
    Mr. Murray. I'd have to get back with you with that number.
    Dr. Huelskamp. Okay. And that number, that limit, if there 
is a limit, is that a monthly limit or is that a cap for a year 
or----
    Mr. Murray. There's both single purchase limits, which 
means per transaction, as well as monthly totals that are 
allowed.
    Dr. Huelskamp. And the variance in totals, that was for the 
monthly or the single purchase, single transaction?
    Mr. Doyle. Well, in the normal course of events an 
individual will have a card that authorizes them up to $3,000. 
If an approving official decides that person does not need that 
$3,000, that cap can be set at some lower dollar value.
    Dr. Huelskamp. Well, I'm worried about the $150,000 or the 
unlimited, which is no cap whatsoever, which seems to be a 
problem area.
    And let me ask Ms. Halliday a question on split purchasing. 
Do you have any evidence that VA employees engage in split 
purchasing transactions on their cards to steer contracts to 
favored vendors?
    Ms. Halliday. If they're splitting purchase orders and 
they're trying to stay below the threshold based on their 
authority, that to me isn't to steer to somebody. They're just 
making those purchases.
    Now, do they have a favorite vendor like the chairman said? 
Possibly. They are circumventing Federal competition 
requirements.
    Dr. Huelskamp. And, Mr. Doyle, are you aware of that 
occurring, and what have you done to stop that?
    Mr. Doyle. Unfortunately, split requirements do happen. I 
don't know if they go to their favorite contractor to benefit. 
The vast majority of unauthorized commitments, I'm convinced, 
because I cite the ratification actions in VHA, are for a bona 
fide need for that facility.
    Dr. Huelskamp. It's not a bona fide need. It's being 
engaged in favoritism in the purchase. We're not saying the 
needs aren't. That's another question. But it's splitting 
purchase so you can avoid that cap, that threshold. Is that 
occurring, and what have you done to stop it?
    Mr. Doyle. I don't have a specific knowledge of it 
occurring. It may be someone gets steered to the IG.
    Dr. Huelskamp. Could be in the memo. Could be in dozens of 
memos you've never seen. But I presume, since this has 
occurred, you've sent an email or contacted the Secretary's 
office to ask him why he didn't see the memo. Have you tried to 
contact him?
    Mr. Doyle. I would not contact the Secretary's office 
directly. I would go through my chain of command in VHA.
    Dr. Huelskamp. Yes, well, you better hurry.
    And I yield back, Mr. Chairman.
    Mr. Coffman. Thank you.
    Ms. Rice. you are now recognized.
    Ms. Rice. Thank you, Mr. Chairman.
    So, Ms. Halliday, I'd just like to go back, and I don't 
know if this has been touched on since I just had to run out. 
But during the course of your investigation did you see any, 
either during it or post issuing it, did you see any 
significant level of accountability for people who were 
engaging in fraudulent, wasteful spending with these cards by 
the VA?
    Ms. Halliday. I think I did cover it. No----
    Ms. Rice. You didn't see any.
    Ms. Halliday [continuing]. Would be the answer.
    Ms. Rice. Okay.
    Ms. Halliday. I do think when we identify an issue that 
goes to criminal investigations there are very specific actions 
that have to take place, criminal prosecutions, restitution, 
penalties, those type of things. I think our investigative 
group takes care of that to the extent that they know it's 
happening.
    Ms. Rice. Now, is there anything that you think we could 
work with the issuing bank on? You know, if you are traveling 
abroad and you use your credit card abroad and it seems like it 
might be a fraudulent activity, they'll deny a charge to make 
sure that it's you.
    And is there any way that you think--I mean, is that one of 
the recommendations that you made? Do you think that would be 
helpful? I mean, I'm just trying to figure out, if you're not 
going to close the universe of people who are given these cards 
and the ability to purchase money, purchase products that cost 
the amount of money that we're talking about.
    Ms. Halliday. Yes, I think the Office of Management has 
started to reduce the purchasing limits on the cards with 
inactive cards and not being able to demonstrate a need for the 
card. I would say, from an IG perspective, we do significant 
data mining and look for all those outliers and anomalies, and 
we do research as many of them as we can. Normally I pick 
financial risk or a pattern to see if there is a problem with 
fraud and then work with investigations.
    Ms. Rice. Okay.
    Mr. Murray, is there--I think it was Mr. Huelskamp that 
asked this question, I think, about the number of people who 
are held accountable. You gave us two, I guess it was a 
reprimand. What were the two things that could be done?
    Mr. Murray. Removals. They were removals. We reported two 
removals.
    Ms. Rice. I'm sorry?
    Mr. Murray. Two removals. Dismissals, removals.
    Ms. Rice. Okay. So from 2010, 2011 to----
    Mr. Murray. It was three semi-annual reporting periods, so 
had to be about 18-month period.
    Ms. Rice. In an 18-month period there were two people who 
were what?
    Mr. Murray. Removed from service, dismissed.
    Ms. Rice. Removed. Anyone reprimanded?
    Mr. Murray. I don't have that information in front of me. 
I'm sorry.
    Ms. Rice. The people who were removed, are you seeking to 
get restitution from them?
    Mr. Murray. I'd have to get back to you with that.
    Ms. Rice. Okay. So, Mr. Murray, the question I have is, if 
there is going to be real systemic reform at the VA, which 
everyone agrees that we need in a bunch of different areas, not 
just in the construction area but the actual procurement area, 
the actual getting medical care to people, the wait times, all 
of those things, would you agree with me that there has to be a 
significant shift in the culture at the VA?
    Mr. Murray. Absolutely would agree with you, and I 
absolutely agree that Secretary McDonald is trying to shift the 
culture. And I believe that I am working with him, and me and 
my staff are doing our very utmost to try to move the culture 
to be more accountable and transparent.
    Ms. Rice. And I do not doubt that at all, and I think that 
Secretary McDonald has that as his main goal as well. But my 
observation is that if you take any one of these cardholders 
who are abusing this system and taking money away from service 
to veterans, and they see their higher-ups coming into this 
room and testifying in the way that they do, that is not going 
to do anything to dissuade people from breaking the rules 
because they know that their higher-ups are going to sit at 
that table right there and they're going to defend the practice 
and never want to admit that they did anything wrong.
    So they can act with complete impunity, it seems to me. So 
if there is going to be a shift in the culture, it has to come 
from the top, and the people underneath you have to know that 
when you come here and you're asked questions like this, you're 
going to say: You're right, this is horrible, and we are going 
to get to the bottom of it, and we are going to hold people 
accountable. It's just a thought.
    Mr. Murray. Yes, ma'am.
    Ms. Rice. Thank you.
    Thank you, Mr. Chairman.
    Mr. Coffman. Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman. Thank you and the 
ranking member for continuing to do what is asked and tasked 
and required of us in our oversight.
    And I passed on my time earlier. Mainly the frustration 
that you heard out of the chairman and many of our members is 
where I'm at, and I want to get solutions other than just 
venting my frustrations, which I think is probably fairly 
important, though.
    And again, Ms. Halliday, welcome, and I echo the sentiments 
of my colleagues. You've been here many times and been very 
helpful.
    I used to have a saying when I'd be here that I'm the VA's 
staunchest supporter and their harshest critic. I'm 
reevaluating that over the years because the first part is not 
having much stick with me.
    You've heard it from folks. Miss Rice was articulating this 
too. There's not much granular detail here. There will be. 
It'll come one way or another, and we'll find out about it and 
get more on it. But I hope everyone was listening. I think the 
ranking member made a very important and clear point about this 
and it was echoed by many other members. There's some advice. 
You all knew what was going to get asked here. Hire somebody to 
tell you what's going to come here. Because, yes, part of this 
is the optics, is what's happening here.
    And then what breaks my heart is, is the VA is damaged for 
a generation. And what kills me is the veterans' lack of trust. 
That's the one I hear all the time. And this makes them 
really--puts our veterans in a really tough spot because they 
have ownership for the VA, and it breaks their heart to see 
these stories in the news because many of them will come to me 
and say: You know, I'm getting really good care at my VA.
    It happens all time. We know that. But these things are 
happening. And it tests their faith, it makes them not be 
advocates that we need them to be for this. And to be very 
honest with you, if there were a fix and they could run into 
the private sector and get the specialized care, that would be 
one thing, but we know that's not there. We know that's what 
the VA is there for in many cases. And if it's not fulfilling 
that, it's not happening.
    So this isn't added on. All of you know. We are so damn--I 
mean, it's just a cliche. The bureaucracy is so siloed up that 
you come today and can't realize this is going to play on 
years' worth. This has to do with Phoenix. This has to do with 
the other issues. And then to try and take us into a kind of 
arcane balancing act on accounting, that wasn't the main 
purpose. The main purpose is to get the answers, and you heard 
people saying this. And I'm not expecting you to violate 
someone's due process or throw them under the bus, but this is 
repeating itself over and over and over again.
    And let's be clear, when the VA comes from now on, you do 
not get the benefit of the doubt. So when you go back and talk 
to your colleagues, you're not getting the benefit of the doubt 
when you come here. And the frustration these members are 
feeling is because they are hearing it from their constituents.
    I have talked about this for 9 years. I talked about 
culture change. That's my job. I'm a cultural geographer. I 
don't for a second believe there is an attempt, especially on 
the levels below, to make that true change.
    You have no time. This is not a multiyear process. It has 
to start today. And the damage is getting deeper, it's getting 
much more difficult to repair, and you're testing the patience 
beyond anything I have witnessed since I've been here.
    So my two cents on this is, is that this Kabuki dance is 
not going to play itself anymore. Be very clear. Someone will 
fix this for you. Someone will fix it for you, and the way our 
system is, that's our responsibility by the American people.
    So thank you, Chairman. I applaud both of your efforts on 
your doggedness on this. And be very clear, while we may have 
differences politically, this is an issue that has unified us 
in a way that I have not witnessed. And so I would say that 
bodes well for us to at least figure out how to get this right.
    I yield back.
    Mr. Coffman. Thank you, Mr. Walz.
    Mr. Lamborn, you are now recognized.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing. I'll just jump right in.
    Mr. Murray, does the VA collect rebates for its use of the 
purchase cards? If so, how much? And also, to what account is 
this deposited?
    Mr. Murray. Thank you for that question. VA collected $75.5 
million in rebates in fiscal year 2014, and that money is 
returned to the accounts that did the original purchase, which 
is primarily the healthcare accounts.
    Mr. Lamborn. Okay. Thank you.
    And also, a VA employee in VISN 3 committed $54 million in 
purchase card authorization without contracts and violated the 
law by using split purchasing to pay for the purchases. How 
could such a large aggregation of unauthorized expenditures 
occur without detection?
    Mr. Murray. There are a number of people use a number of 
cards with a number of approving officials and put change 
vendors, change amounts, put time between the purchases. There 
can be some sophistication in people trying to avoid the 
appearance of a split purchase, and sometimes it's not always 
clear that a purchase is a split purchase.
    Mr. Lamborn. Mr. Frye, would you care to comment on that 
question as well?
    Mr. Frye. Yes. Actually this was a classic case of an 
employee in VISN 3 trying to deceive the public. These amounts 
that were being hand jammed into the Federal Procurement Data 
System, as I recall, were from 2010 and 2011, and these dollars 
were being jammed into the Federal Procurement Data System, I 
think, in a way to make it look like this VISN had increased 
its small business efforts. Don't know for sure because there 
was no--again, nothing is ever--nothing seems to ever be 
investigated to the fullest extent.
    But as you know, it took us nearly 11 months to answer the 
questions. We received a request from Mr. Johnson. It took us 
so long to reply that Mr. Johnson retired, and that response 
went to Mr. Coffman. The response that I received in my office 
for me to chomp on was just ridiculous. It was full of 
obfuscation, falsehoods. And I absolutely blew a gasket. I 
threw it in the trash, and I rewrote it. And then it was signed 
by my boss, then Mr. Haggstrom, and further signed by the 
Secretary, and it came to Mr. Coffman.
    It was deplorable to me that we got responses out of VHA 
that made absolutely no sense whatsoever. But that's why it 
took 11 months to gin up the answer. The first answer we got 
was that the hurricane ruined the files. Complete falsehood. 
There were no files. There were no contract files. No contracts 
were put in place. Prosthetics personnel simply made--it 
appears the prosthetics personnel simply made purchases without 
the benefit of contracts and paid for those using the cards.
    The individual that was caught hand jamming those into FPDS 
didn't actually make the purchases. They were just trying to 
thank--or take credit, we believe, for small business, and they 
were putting purchases in from previous years.
    So it's probably a lot more complex than I've depicted 
here, but no formal investigation was ever done. That's $55 
million, or nearly $55 million, that can't be accounted for 
that the taxpayer never saw it. And worse, maybe that should 
have been set aside for a veteran-owned service-disabled or 
veteran-owned small businesses. It wasn't.
    Mr. Lamborn. Thank you. I appreciate that.
    Mr. Chairman, I yield back.
    Mr. Coffman. All right. Thanks to the witnesses today. Are 
there any more comments? Questions?
    Prior to excusing you, Mr. Murray, I would like to get your 
guarantee and assurances that Mr. Frye, who has testified as a 
whistleblower today, will not be subjected to any retaliation 
by VA for doing so. Will you make that guarantee to me?
    Mr. Murray. I will.
    Mr. Coffman. Very well.
    You are now excused. Thank you for your testimony.
    Today we have had a chance to hear about problems that 
exist within the Department of the Veterans Affairs with regard 
to oversight of its Government Purchase Card Program. Based on 
the testimony provided and questions asked today, it appears 
that VA is failing to adequately monitor the use of its 
purchase cards and those who hold them, which is resulting in 
the waste of billions of taxpayer dollars and should be used to 
serve our veterans.
    As such, this hearing was necessary to accomplish a number 
of items, to, number one, identify the continuing widespread 
problems with VA with regard to the use of Government Purchase 
Cards; two, to allow VA to provide answers as to why these 
problems will exist and have been allowed to continue for so 
long; and three, assess next steps that must be taken by the 
Department in order to stem the continued waste out of taxpayer 
dollars.
    I ask unanimous consent that all members have 5 legislative 
days to revise and extend their remarks and include extraneous 
materials. Without objection, so ordered.
    Mr. Coffman. I would like to once again thank all of the 
witnesses and audience members for joining in today's 
conversations. With that, this meeting is adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                APPENDIX

                                 <F-dash>

         Prepared Statement of Chairman Mike Coffman, Chairman

    Oversight and Investigations Remarks
    ``Waste, Fraud, and Abuse in VA's Purchase Card Program''
    May 14, 2015
    Good morning. This hearing will come to order.
    I want to welcome everyone to today's hearing titled, ``Waste, 
Fraud, and Abuse in VA's Purchase Card Program.'' This hearing will 
examine the deficiencies in VA's implementation and oversight of its 
government Purchase Card Program.
    The use of Government Purchase Cards is intended to streamline 
payment procedures and improve cash management practices at the 
Department. However, the program has had a history of weak internal 
controls resulting in serious violations of procurement laws, including 
the Competition in Contracting Act and the Federal Acquisition 
Regulation. Due to inadequate oversight of the Purchase Card Program, 
especially at the Veterans Health Administration, we have learned that 
VA may have committed as much as $5 billion a year in improper and 
unauthorized procurement expenditures for at least the last five years.
    This is a truly staggering amount. Given the high number of 
transactions--$6.2 million in FY 2014--and the aggregate billions at 
risk, it is crucial that VA implement effective oversight controls to 
ensure it uses taxpayer resources efficiently for veterans. Even after 
multiple reports from the OI-G and GA-O, VA continues to leave its 
program vulnerable to massive waste, fraud, and abuse. In this regard, 
for fiscal year 2015, VA OI-G has identified the following seven high 
risk areas:
    1) Exceeding authorized purchase limits individually or 
aggregately;
    2) An excessive number of purchase cardholders with inadequate 
justification;
    3) An unmanageable span of control (ratio of cardholders to 
approving officials is high);
    4) Inadequate financial controls prohibiting duplicative or split 
payments;
    5) Inadequate recording or reporting of financial information;
    6) Insufficient oversight of year-end spending; and
    7) Inadequate review of purchases by reviewing officials.
    Violations of procurement laws are not mere technicalities. It is 
not just a matter of paying a little more for needed supplies and 
services as some apologists for VA have asserted. Among other things, 
purchase card abuse invites cronyism and the directing of business to 
favored vendors, including those who may employee former VA officials. 
Moreover, buying biologics and medical supplies without contracts 
imperils patient safety. Without contracts, F-D-A certifications are 
not a legal requirement nor are the Buy American Act or Trade Agreement 
Act provisions. If veterans are later harmed by these products, VA 
would have little recourse without contracts with the vendor.
    Recognizing the importance of compliance with procurement laws in 
Purchase Card Programs, Congress passed the Government Charge Card 
Abuse Prevention Act of 2012 requiring periodic audits, reports, and 
risk assessments. It also requires that agencies hold employees who 
violate purchase card guidelines or make erroneous, improper, or 
illegal purchases accountable through adverse personnel actions, 
including dismissal. Under existing law, agencies may also hold such 
employees personally liable. However, rather than following the law and 
holding its employees accountable, VA has often sought to 
institutionally ratify unauthorized commitments, sometimes in 
wholesale, for years of illegal purchases.
    I am sure many of you now know that the Washington Post published 
an article this morning involving these very issues, citing to a 35-
page letter sent to Secretary McDonald months ago detailing these 
problems. We distributed that letter to every member of this 
Subcommittee and would like to get answers from VA as to what it plans 
to do to fix the litany of problems explained within it.
    In conclusion, VA needs to explain to this Subcommittee, to 
taxpayers, and to veterans, its continuing and longstanding 
mismanagement of the Purchase Card Program. Each time VA makes illegal 
purchases, taxpayers are forced to foot the bill, resources to care for 
veterans are squandered, and the Veteran as well as the government 
assumes all the risk.
    I look forward to the discussion we will have here today on this 
important issue. With that, I now yield to Ranking Member Kuster for 
any opening remarks she may have.

                                 <F-dash>

           Prepared Statement of Ranking Member Ann M. Kuster

<bullet> Thank you Mr. Chairman.
<bullet> Purchase cards simplify the often-cumbersome practice of 
procurement. The use of purchase cards by Federal agencies, including 
the VA, is estimated to save these agencies $1.7 billion per year. But 
their very ease of use sometimes invites abuse.
<bullet> Recent reports have detailed abuses in the Departments of 
Defense and Homeland Security. The work of the VA Inspector General has 
highlighted areas of abuse and concern with the VA's use of purchase 
cards. It is my hope today that we can discuss the benefits of this 
program, as well as the problems, and that we can work together to find 
solutions that strengthen the VA's internal controls and oversight to 
ensure that VA has more resources to spend on our veterans, and that 
these resources are used for proper purposes.
<bullet> The recent VA Inspector General findings, while not as 
shocking as the DoD and DHS scandals, are still troubling. I am 
concerned about the VA's lax oversight over purchase cards, and the 
lack of accountability for purchase card holders. While purchase cards 
are necessary to VA operations, we must thoroughly examine the policies 
and processes in place to prevent further misuse and hold VA employees 
accountable for violations of federal acquisition law and regulations.
<bullet> The data is concerning: from 2012 to 2013, 15,600 purchase 
card transactions valued at $85.6 million may have been unauthorized 
purchases. Although the vast majority of these purchases were for 
legitimate purposes--not fraud, waste, and abuse--acquisition law was 
still violated and employees were not held accountable. Many of these 
card holders allegedly exceeded their authorized purchase limit. In 
other instances, card holders split purchases--which is the practice of 
improperly dividing what should have been a single purchase into 
separate purchases to avoid micro-purchase thresholds and Federal 
Acquisition Regulation (FAR) competition requirements. Additionally, 
due to the large volume of unauthorized purchases, VA failed to follow 
proper procedures to ratify each of these unauthorized purchases, which 
meant that VA employees were not held accountable for circumventing the 
law.
<bullet> One of the areas I would like us to focus on this morning is 
whether VA has an adequate number of Approving Officials to ensure that 
purchases are scrutinized before they are made, and not just looked at 
afterwards. Does VA have the resources to provide adequate oversight, 
and the focus on this program that I believe they need. Are cardholders 
provided a suitable level of training in order for them to avoid making 
improper or unauthorized purchases?
<bullet> Another area I would like to explore is whether technology may 
provide us with an additional layer of oversight and scrutiny. The use 
of financial algorithms similar to those used by credit card companies 
to detect fraud can also be used to detect improper use.
<bullet> I look forward to hearing the testimony from our witnesses, 
and working with each of you to strengthen oversight of VA procurement.
<bullet> Thank you Chairman Coffman, and I yield back the balance of my 
time.

                                 <F-dash>

                Prepared Statement of Mr. Edward Murray

    Good morning, Chairman Coffman, Ranking Member Kuster, and Members 
of the Subcommittee. Thank you for the opportunity to discuss the 
Department of Veterans Affairs' (VA) implementation and oversight of 
our Government Purchase Card Program. I am accompanied today by Mr. 
Gregory Giddens, Principal Executive Director, Office of Acquisitions, 
Logistics and Construction (OALC), Mr. Jan Frye, Deputy Assistant 
Secretary for the Office of Acquisition and Logistics and Mr. Norbert 
Doyle, Chief Procurement and Logistics Officer for the Veterans Health 
Administration (VHA).
    VA has a robust Government Purchase Card Program with 25,515 card 
accounts generating $3.7 billion worth of purchases in 6.1 million 
transactions as of the end of Fiscal Year (FY) 2014. We rely on this 
program to aide in the expeditious acquisition of supplies and services 
in support of our Veterans. For example, purchase cards are used for 
acquisition of prosthetics and sensory aids that promote health, 
independence and quality of life for Veterans. As with many large 
programs, we have experienced challenges in implementing the Government 
Purchase Card Program as noted in recent reports by VA's Office of the 
Inspector General (OIG). We value the recommendations provided by OIG 
and have implemented needed improvements to strengthen controls over 
VA's Purchase Card Program.

Background

    Implementation, including oversight and internal controls, of VA's 
Purchase Card Program is a collaborative effort across the Department. 
Key Department-level participants include OALC, VHA, and the Office of 
Management (OM). In implementing our program we are acutely aware of 
the need to effectively manage taxpayer resources; as such, we maximize 
use of the Government Purchase Card Program to reduce administrative 
overhead costs while earning rebates.
    OALC is responsible for the acquisition policy for the Department. 
In this role, OALC manages the delegation from the Secretary for the 
micro-purchase authority (less than $3,000). OALC further delegated the 
micro-purchase authority, which is specific to the Governmentwide 
commercial Purchase Card Program, to OM. OALC maintains responsibility 
for procurement policy of the program above the micro-purchase 
threshold, while OM is responsible for providing policy up to the 
micro-purchase threshold.
    OM establishes purchase card policies and procedures defining roles 
and responsibilities, ensuring separation of duties, and overseeing the 
management of VA's Purchase Card Program. OM also ensures that VA 
purchase card policies are in compliance with Appendix B of the Office 
of Management and Budget (OMB) Circular A-123, ``Improving the 
Management of Government Charge Card Programs,'' and with the 
Government Charge Card Abuse Prevention Act of 2012.
    In October 2011, VA took a significant step toward strengthening 
internal controls by consolidating the Purchase Card Program under the 
Financial Services Center (FSC). This action enabled centralized 
oversight, management, and consolidation of the Purchase Card Program, 
thus reducing the number of purchase card accounts VA-wide by 31 
percent from approximately 37,000 in FY2011 to 25,515 by the end of 
FY2014.
    VA is committed to continuous monitoring and improvement of its 
Government Purchase Card Program and has implemented a number of 
processes and internal controls to minimize and eliminate fraud, waste, 
and abuse. For example, we close or reduce card spending limits due to 
inactivity, invalid training certificates, lack of valid warrants, or 
for separated employees. Controls have been implemented with the U.S. 
Bank to limit the use of the government purchase card for specific 
types of merchants. We also have mandated the use of the U.S. Bank on-
line portal for reconciliations of purchase card transactions and 
monitor the completion of reconciliations on a monthly basis. Training 
is required prior to the issuance of a card, with refresher training 
required every two years. In addition, controls have been implemented 
to ensure active government purchase card holders are compliant with 
these training requirements. As noted, with centralized control within 
FSC, we are able to monitor purchase card activity across VA on a 
daily, weekly and monthly basis. Using these controls, we have not 
identified any cardholders with single purchase limits above the micro-
purchase threshold who were not warranted since January 2013.
    OM also conducts two types of oversight reviews of the Purchase 
Card Program at the transactional level--data mining and statistical 
sampling. The data mining process involves collecting, filtering, and 
analyzing approximately 1.5 million transactions each Fiscal Quarter to 
seek patterns or relationships in the data and identify areas of 
potential non-compliance with policy requirements. The statistical 
sampling seeks to select and evaluate a representative sample of 
transactions from the same population to review for compliance with 
policy. OM issues quarterly memoranda to responsible officials to 
notify them of potential unauthorized commitments such as split 
purchases and transactions that exceeded micro-purchase limits that may 
require ratification. Beginning in 2015, if no response is received 
from the initial responsible official, OM elevates the potential 
unauthorized commitments to officials in the cardholder's chain of 
command--with 30 day intervals between each elevation. In calendar year 
2014, we issued nine elevation memos for 95 ratifications pending 
completion at the time of the OIG review. We also continue to 
aggressively elevate unresolved ratifications identified during 
quarterly reviews, and have issued eight additional elevation memos to 
date in 2015 for 49 open ratifications.
    Within VA, VHA has the largest number of government purchase 
cardholders, generating a little over 98 percent of purchase card 
transactions in the Department in FY2014. VHA purchase cardholders 
spend about $3.7 billion annually on approximately 6 million 
transactions. VHA has approximately 11,000 cardholders and 6,000 
approving officials (AOs); typically the AO is a supervisor within the 
cardholder's chain of command. VHA's Procurement and Logistics Office 
provides additional oversight over VHA's Purchase Card Program.

Government Charge Card Abuse Prevention Act of 2012

    On October 5, 2012, the President signed into law the Government 
Charge Card Abuse Prevention Act of 2012 (Charge Card Act), Public Law 
112-194, which reinforced Administration and Congressional efforts to 
prevent waste, fraud, and abuse of Governmentwide charge card programs. 
In September 2013, OMB issued guidance to Departments and Agencies on 
implementation of the Charge Card Act. In December 2013, VA's Financial 
Policy was updated to comply with the Charge Card Act and OMB guidance.
    A chief purpose of the Charge Card Act was to deter employee misuse 
of government cards, by implementing penalties for charge card 
violations. Additionally, VA revised Human Resources policy to outline 
penalties, adverse personnel actions, or other appropriate disciplinary 
actions for misuse of the purchase card.

Corrective Actions To Address OIG Findings

    In the report ``Administrative Investigation of VA's FY2011 Human 
Resources Conferences in Orlando, FL'', issued September 2012, OIG 
found that at least one VA employee held at least 3 purchase cards with 
single purchase limits above the micro-purchase threshold and had 
inappropriately made purchases above the micro-purchase threshold. OIG 
recommended that VA complete a special review of purchase card 
transactions in support of VA Learning University conferences. OM took 
this weakness in internal controls very seriously and opted to expand 
this review VA-wide across the entire Purchase Card Program.
    During its review, OM identified a total of 2,022 unwarranted 
purchase card accounts with single purchase limits over the micro-
purchase threshold. OM initiated a reconciliation and corrective action 
process, which resulted in the systematic reduction of single purchase 
limits as prescribed in the cardholder's valid warrant. That process 
was completed by January 2013.
    Concurrent to the review, in December 2012, the FSC became the 
single centralized point of control in VA for setting the single 
purchase limit for a cardholder. All requests to raise or lower the 
single purchase limit on a purchase card account must be submitted to 
the FSC. Requests to raise the single purchase limit over the micro-
purchase threshold are reviewed to verify that the cardholder possesses 
a valid warrant on the most recent OALC warrant report. In addition, as 
of December 2013, U.S. Bank routes the request for the issuance of new 
Government Purchase Cards to FSC for review and approval or rejection. 
FSC then works to ensure full compliance with policy and validates 
training and warrants during the review process.
    In May 2014, OIG issued a report on the ``Review of Alleged 
Unauthorized Commitments'', which reviewed purchase card transactions 
from FY2012, substantiated allegations that cardholders had made 
unauthorized commitments, and that VA had not performed ratification 
actions on identified unauthorized commitments. In total, OIG made nine 
recommendations to VA, all of which were closed by April 2015.
    In its report, OIG also projected 15,600 potential unauthorized 
commitments, valued at approximately $85.6 million in FY2012 and 
FY2013. OIG recommended OM review FY2012 and FY2013 purchase card 
transactions exceeding $3,000 to identify unauthorized commitments made 
by cardholders who did not have appropriate warrant authority. In 2014, 
OM conducted the review of 57,577 high risk transactions valued at 
$586.5 million. OM determined that roughly 29 percent, 16,686 
transactions, valued at $221.2 million were potentially unauthorized 
commitments and needed research and validation from Heads of 
Contracting Activity (HCA) before a final ratification determination 
could be made. The result of the initial review of the 16,686 
transactions by HCAs identified 4 percent or 680 unauthorized 
commitments totaling $10.7 million. VA continues to review these 
transactions for appropriate action.

Path Forward

    VA has made tremendous strides in recent years in its Purchase Card 
Program, however, we recognize the need to continue to expand and 
improve our oversight and internal controls. The Charge Card Act has 
supported our improved program and we continue to develop and refine 
training for all Government Purchase Card Program participants; to 
develop and continuously monitor data analytics to identify trends of 
misuse and abuse and elevate for appropriate remediation; and to seek 
ways to develop a cross-functional mechanism of continuous 
improvements.
    Mr. Chairman, this concludes my testimony. My colleagues and I are 
prepared to answer any questions you, or other Members of the 
Committee, may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Prepared Statement of Jan R. Frye

    Chairman Coffman, Ranking Member Kuster, and Members of the 
Subcommittee. Thank you for inviting me to testify before you this 
morning. Today I find myself in a position I never envisioned myself to 
be in. I am testifying as a whistle blower.
    Before I go further, I want to assure you I do not enjoy being a 
whistle blower. I am not a disgruntled VA Senior Executive. I am 
definitely not seeking attention or celebrity. I am here before you, 
because I have been unsuccessful in my persistent attempts to bring 
massive violations of Federal acquisition and fiscal laws and 
regulations to a halt in VA.
    Each of us engaged in Federal acquisition and fiscal processes have 
an overriding responsibility to taxpayers. Those of us in leadership 
positions must always lead in a manner so as to maintain the public 
trust, while upholding the integrity of the Federal acquisition and 
financial systems.
    Over the past five years, some senior VA acquisition and finance 
officials have willfully violated the public trust while Federal 
procurement and financial laws were debased. Their overt actions and 
dereliction of duties combined have resulted in billions of taxpayer 
dollars being spent without regard to Federal laws and regulations, 
making a mockery of Federal Statutes. I am not aware of a single senior 
acquisition leader being held accountable for wrongdoing or dereliction 
in the nearly 10 years I've been in my present VA position.
    While intentional violations of Federal acquisition and fiscal laws 
add to the VA's now infamous ``corrosive culture'' recently cited by 
the White House, these unlawful acts may potentially result in serious 
harm or death to America's veterans. When VA procures pharmaceuticals 
or medical devices without terms & conditions afforded via written 
contracts, the government forfeits all legal protections afforded by 
contract law. Efficacy and safety mandates are nonexistent.
    Without contracts, Food and Drug Administration certifications are 
not a legal requirement, nor are Trade Agreement Act or Made-in-America 
provisions. Unfortunately, the government has little recourse if 
veterans are harmed by products or services obtained without protection 
of contract terms & conditions.
    In addition doors are flung wide-open for fraud, waste and abuse 
when contracts are not executed. For example, by law, prices paid for 
goods or services subject to contracts can only be determined to be 
fair-and-reasonable by duly appointed contracting officers. I can state 
without reservation that VA has and continues to waste millions of 
dollars by paying excessive prices for goods and services due to 
breaches of Federal procurement laws.
    Further, traceability and auditability of public funds spent 
without regard for established laws and regulations are difficult if 
not impossible to realize. Contract award data is required statutorily 
to be recorded in the Federal Procurement Data System (FPDS), which is 
accessible by the general public. When contracts are not executed, 
taxpayers are not afforded access to data describing these 
expenditures.
    Also, VA small-business goal accomplishments have been and continue 
to be overstated. Illegal procurements without contracts are not 
included in calculations to determine Federally mandated small-business 
goals. Thus we've duped the veteran-owned business community we are 
required by law to advocate for.
    The overarching questions are these: How is it possible the VA 
procurement and finance systems have been allowed to operate where 
potentially billions of dollars in goods and services are acquired 
without contracts as required by Federal law? Why are VA senior 
procurement and finance officials not actively enforcing acquisition 
and fiscal laws?
    You have just heard Mr. Murray provide the VA's official statement 
in response to your request for this hearing. There are no false 
affirmations in our statement that I am aware of. However, senior 
leaders before you today know the Department is not telling the whole 
story. We hope you won't ask us any questions that will force us to 
tell you about the important pieces we've premeditatedly left out. If 
you happen to ask us about what we've failed to tell you, we hope we 
can answer your questions in such a way as to quickly extinguish 
potential follow-on questions. In short, obfuscation is our game.
    I will no longer be a party to these VA games. The vaunted Veterans 
Affairs ICARE values, with Integrity being first, make an attractive 
lapel pin, but little else if we don't live these values daily. We 
continue to flout Integrity, the most basic and necessary foundational 
footing, the very core of our being.
    In the recent past, because VA senior leaders would not conduct 
themselves appropriately, I was forced to request assistance from 
Congressional members. For instance, Rep. Donnelly, now Senator 
Donnelly, assisted me in halting ubiquitous violations of Federal law 
in the procurement of VA pharmaceuticals in 2012, through hearings he 
mustered. Former Rep. Buyer assisted me twice in arresting massive 
violations in the use miscellaneous obligations, in 2008 and again in 
2010, through hearings.
    In 2013 I attempted to report massive, illegal acts to the House 
Oversight and Government Reform Committee, including matters involving 
illegal purchase card use. I was thwarted in my efforts when that 
Committee's Senior Counsel and a VA Senior Acquisition Executive, who 
are friends, conspired to keep my letter from Chairman Issa.
    Approximately seven weeks ago, I disclosed illegal matters in a 35-
page report to Secretary McDonald, which included recommendations going 
forward. My labors have not yet been acknowledged. I took to heart the 
Secretary's invitation for ``whistle blowers'' to step forward. I 
believed the Secretary was sincere when entreating all VA employees to 
abide by words found in the West Point Cadet Prayer ``Make us to choose 
the harder right instead of the easier wrong.'' However, I hope we can 
also live up to the remainder of the sentence in which those words are 
contained, which reads ``and never to be content with a half-truth when 
the whole can be won.''
    Mr. Chairman, this concludes my testimony. I am prepared to answer 
questions you or other members of the Subcommittee may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
